<html>
<title> - THE CHANGING ARCTIC: IMPLICATIONS FOR FEDERAL RESOURCES AND LOCAL COMMUNITIES</title>
<body><pre>[Senate Hearing 111-1049]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1049
 
   THE CHANGING ARCTIC: IMPLICATIONS FOR FEDERAL RESOURCES AND LOCAL 
                              COMMUNITIES 

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 19, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-956 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 19, 2010..................................     1
Statement of Senator Begich......................................     1
    Prepared statement...........................................     3

                               Witnesses

Hon. Debbie Stabenow, U.S. Senator from Michigan.................     4
    Prepared statement...........................................     5
Hon. Edward S. Itta, Mayor, North Slope Borough..................     7
    Prepared statement...........................................     8
Rear Admiral Christopher Colvin, Commander, Coast Guard District 
  Seventeen, U.S. Coast Guard....................................     9
    Prepared statement...........................................    11
Laura K. Furgione, Deputy Assistant Administrator for Weather 
  Services, NOAA, U.S. Department of Commerce....................    15
    Prepared statement...........................................    17
Richard Glenn, Vice President, Arctic Slope Regional Corporation.    25
    Prepared statement...........................................    28
Mary C. Pete, Commissioner, U.S. Arctic Research Commission......    30
    Prepared statement...........................................    31
Marilyn Crockett, Executive Director, Alaska Oil and Gas 
  Association....................................................    33
    Prepared statement...........................................    36


                          THE CHANGING ARCTIC:
                   IMPLICATIONS FOR FEDERAL RESOURCES
                         AND LOCAL COMMUNITIES

                              ----------                              


                       THURSDAY, AUGUST 19, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                        Barrow, AK.
    The Committee met, pursuant to notice, at 10 a.m. in the 
Multipurpose Room, Inupiat Heritage Center, 542 Northstar 
Street, Barrow, Alaska, Hon. Mark Begich, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We can call--is that on? Yes. We can call 
the field hearing to order.
    Before we start and before I describe how a field hearing 
works and some opening comments, I'd like to ask George Little 
Man to come up and give us an opening prayer, if that would be 
OK.
    George?
    Mr. Little Man. Thank you for coming. Welcome you and with 
that, just a moment of silence. As you know, we lost our late 
Senator here, Ted Stevens. So a moment of silence and then I'll 
say the prayer.
    [Moment of Silence.]
    Mr. Little Man. Father, we thank you for this day that you 
have given us and the things that have happened and they are 
what they are, but we cannot change anything but you are our 
Creator and we thank you for the people that are gathered here 
to address the issues that concern all of us. Amen.
    Senator Begich. Thank you, George. Let me--before we start, 
we do have a panel and I'm joined by Senator Stabenow from 
Michigan.
    Before I do that, I want to explain to people what a field 
hearing is and what the purpose is. This is a chance for the 
U.S. Senate, in this case the Commerce Committee, to go out to 
communities and these happen around the country in different 
aspects, different committees, and this one's the Commerce 
Committee, to talk about in our case, the Arctic and the 
Changing Arctic and to understand what is happening and to hear 
from people who have information that they will present to the 
Commerce Committee in this format and in an official record 
which will then be shared with my colleagues back in 
Washington, D.C.
    So the objective is to help inform the Washington, D.C., 
folks how it works in Alaska when it comes to the Arctic and we 
have a very good panel, and I am joined by Debbie Stabenow, 
Senator from Michigan. We're very pleased for her to be here.
    I think this is now the farthest north you have ever been.
    Senator Stabenow. I think so.
    Senator Begich. I think so and so she will--as she said to 
me as she landed, she is learning every second already about 
the uniqueness of our state and our communities here. So we 
thank her for being here.
    She sits on the Energy and Natural Resources Committee 
which, for Alaska, is an important committee that deals with 
many issues, especially here in the Arctic.
    We also serve together on the Budget Committee. I'm a new 
member, she has been there a little longer, and we've had an 
opportunity to do some interaction with regard to the budget.
    As mentioned by George, I do want to just take a minute to 
recognize and honor, as yesterday the state took some time to 
honor, the late Senator Ted Stevens. There's no question his 
understanding, his desire with the Arctic and understanding the 
uniqueness of Alaska and bringing Alaska truly into the modern 
world in a lot of aspects. Everything from statehood to the 
pipeline to Native Land Claims Act and many other things, as 
all of us know.
    I have been traveling the last week here and wherever I've 
gone, there's no question wherever and whoever you talk to, 
Senator Ted Stevens touched us. It may have been as a group, an 
organization.
    I don't know if that's a good thing or not, Mayor, that 
bell there.
    But there's no question that he had incredible impact on 
all of us across this state and will be remembered for 
generations to come not only in the city I was born in in 
Anchorage, but all the way here in Barrow and throughout the 
state. So yesterday was a very, I think, moving ceremony and an 
opportunity for Alaskans to think and remember so much of what 
he did to help us move forward.
    But one of the areas I know he was interested in was the 
Arctic and the future of the Arctic and where it should go and 
what it could be. I know, as now a U.S. Senator in Washington, 
DC., there's no question in my mind the importance of the 
Arctic.
    As I talk to my colleagues and explain the value and what 
is here and its potential, I know from my perspective that, as 
we move down the road, we'll be talking about mineral 
resources, oil and gas resources, the environment, the 
transportation. You can kind of list the items that are on the 
agenda, from subsistence to what can happen and will happen 
with or without us participating.
    As the Arctic continues to melt and the industrial activity 
occurs up in the Arctic, it is important for us now to take a 
lead in doing what we can to manage it the best we can.
    I have introduced several bills around the issue of the 
Arctic, from research to addressing the environmental impacts 
to long-term need for the Coast Guard. We were up in Kotzebue, 
if I remember--you know, that's the one thing I've learned. I 
travel so much now, I've got to remember what day I was where, 
but we were up in Kotzebue visiting some of the forward 
operations of the Coast Guard and we were recognizing the need, 
the long-term need and the presence of the Coast Guard here in 
the North as the Arctic continues to open up.
    Also, whatever happens in the Arctic, if we decide to 
develop in the Arctic with oil and gas, the revenue stream that 
should be available from the Federal waters into our state, to 
the people of our state is critical, and we've introduced 
legislation around that.
    Let me really just--I want to kind of end my general 
comments and before I introduce the panel, I'm going to ask 
Senator Stabenow to say a few words and then I'll introduce the 
panel and, Mayor, I'm going to start with you.
    My D.C. folks tell me I'm breaking protocol, but I don't 
really care. The mayor of a borough is important and, Mayor 
Itta, you have been a great ally in your community in bringing 
your needs to Washington not once but many times, as I have 
been subjected to your, and I say that in a positive way, your 
explanation to me on the needs of the Arctic and you have done 
a great job in doing that.
    [The prepared statement of Senator Begich follows:]

    Prepared Statement of Hon. Mark Begich, U.S. Senator from Alaska
    Thank you and welcome to this important hearing by the Senate 
Commerce Committee on the Effects of Climate Change in the Arctic, its 
implications for local communities and Federal responsibilities in the 
area.
    I'm pleased to welcome my colleague from the Senate, Debbie 
Stabenow of Michigan, who serves on the Senate Committee on Energy and 
Natural Resources and with whom I serve on the Budget Committee.
    Before I introduce our witnesses today. I'd like to remember my 
predecessor in the U.S. Senate and his commitment to the Arctic.
    Ted Stevens was honored yesterday following the tragic airplane 
accident which took a life that encompassed much of what we know as 
modern day Alaska--from the statehood movement to building the pipeline 
and Native land claims.
    Senator Stevens cared deeply about all Alaskans and worked to 
ensure that rural residents shared the same benefits enjoyed by other 
Americans: basic services like health care, clean water, and 
telecommunications.
    So we could afford these services, he was a strong proponent of 
responsible and sustainable resource development, guided by a strict 
conservation ethic.
    Senator Stevens knew the Arctic has vast opportunities for energy 
development and unique needs to protect the subsistence resources that 
have sustained the Inupiaq residents of the Arctic for generations.
    I share those goals and in looking at the challenges facing the 
Arctic--which has been called ``ground zero for climate change''--I 
introduced a series of hills last year.
    I called it the ``Inuvikput'' package, named after the Inupiaq word 
for ``the place where we live.''
    That's intended to underscore that the Arctic is not a frozen 
wasteland, rather it is a unique ecosystem that is home to a strong 
people who endure the hardships of its long winters and have built a 
vibrant culture about subsisting in the north.
    My Inuvikput bills deal with:

  <bullet> Strengthening basic research into changing Arctic 
        environmental conditions;

  <bullet> Addressing the adaptation needs of communities some of which 
        are literally being undercut by coastal erosion or heaving 
        permafrost;

  <bullet> The special health needs of northern peoples;

  <bullet> The need for a stronger Coast Guard presence, including 
        icebreakers and forward operating bases to assert our national 
        interest in the opening Arctic waters deal with the search and 
        rescue and other responsibilities of increased maritime trade 
        and be prepared for oil spills in Arctic conditions; and,

  <bullet> Revenue sharing so local communities share in the benefits 
        of development off their shores.

    Some of these concepts were recently included in Commerce Committee 
Chairman Rockefeller's SHORE Act, the ``Securing Healthy Ocean 
Resources and Environment Act.''
    This bill mainly addresses shortcomings apparent after the 
Deepwater Horizon blowout in the Gulf of Mexico, but I'm pleased the 
Chairman recognized the importance of Arctic by including key 
provisions regarding scientific research and infrastructure development 
in his bill.
    I'd like to thank all of our witnesses, many of whom have traveled 
from far away to be here today.
    For those from Washington, D.C., I think you will find that Arctic 
winds are not just cooler, but they blow free of the partisan pressures 
that often stifle progress within the Beltway.
    In the Arctic, speaking your mind is often a matter of survival. 
With that, I'd like to welcome our panelists:
    I'm happy we have representatives of the Coast Guard and the 
National Oceanic and Atmospheric Administration since these two key 
agencies play a vital role in the Alaska Arctic now, and will do even 
more so in the future.
    We're fortunate to have Rear Admiral Chris Colvin, Commander of the 
Coast Guard's 17the District which includes all of Alaska, and Laura 
Furgione, who heads NOAA's Arctic Strategy team to tell us more about 
how the government is going to help us operate safely and sustainably 
in the changing Arctic.
    I especially look forward to second panel, which is where we get to 
hear from the people who live here and are on the front lines of how 
climate change is affecting their lives.
    I'm pleased to welcome:

  <bullet> North Slope Borough Mayor Edward Ina--a longtime leader and 
        whaling captain recently featured in Parade magazine;

  <bullet> Mary Pete of Bethel, an educator and subsistence advocate 
        and the newest member of the U.S. Arctic Research Commission;

  <bullet> Richard Glenn, Vice President of the Arctic Slope Regional 
        Corporation, a for-profit ANCSA corporation committed to 
        preserving the traditional values of protecting the land, the 
        environment and the culture of the Inupiat;

  <bullet> State Representative Reggie Joule of Kotzebue, a leader on 
        Alaska health and education issues and World Eskimo Indian 
        Olympian;

  <bullet> And Marilyn Crockett, executive director of the Alaska Oil 
        and Gas Association which represents the majority of oil and 
        gas operators in Alaska.

    Before we begin, I'll invite my colleague from Michigan to make 
some opening remarks before we begin our broader discussion of this 
important subject.

    But let me first, if I can ask Senator Stabenow, and then 
I'll introduce the panel, and then I'll ask Mayor Itta to open.

              STATEMENT OF HON. DEBBIE STABENOW, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Well, thank you, Senator Begich, and good 
morning. It really is a thrill and an honor for me to be here 
for a number of reasons.
    First, having heard over and over again from Senator Begich 
both about the beauty of Alaska but also the needs of Alaska, I 
don't think there's anyone--I know there's not anyone I have 
met in my tenure that has been more of a champion in talking 
about Alaska and being the welcoming presence of urging all of 
us to come and see for ourselves both what your needs are, what 
your challenges are, and how we can be supportive of you.
    I certainly join with Senator Begich in remembering the 
lion, the champion in Senator Ted Stevens, certainly, and we 
all send our prayers to his family this week.
    But it has been a real pleasure for me to get to know 
Senator Begich and his family and to see Alaska through his 
eyes and to now have the opportunity to come and see for 
myself.
    I am from Michigan. We consider what we call the Upper 
Peninsula, the UP of Michigan to be North. I now have found a 
place that is farther north in our country, but we share many 
things.
    The Coast Guard resources are critical to Michigan as they 
are to you and we so much appreciate the leadership, Rear 
Admiral, of your being here today and we also share neighbors 
with Canada. So I find there are a number of different ways. We 
have very many small rural communities.
    I actually grew up in a town, I was telling the Mayor, 
smaller than Barrow, 2,500 people in a little town in Northern 
Michigan where I grew up. So, Senator Begich, we have a lot of 
common interests in terms of the needs of our states and not 
only on the Energy Committee and Budget but serving on the 
Agriculture Committee where rural development is so important 
and focusing on Finance Committee where I'm very proud we were 
able to pass the Indian Health Bill after many, many, many 
years and to be able to focus, as well, on those needs which 
are so important.
    So, Mayor, we're happy to be here. I'm happy to be here and 
I'm looking forward to the opportunity to hear from the panel.
    [The prepared statement of Senator Stabenow follows:]

 Prepared Statement of Hon. Debbie Stabenow, U.S. Senator from Michigan
    Thank you to Senator Begich and the Barrow Community for having me 
here today as a visitor to Alaska and the Commerce Committee.
    I look forward to hearing testimony and learning more about how 
climate change is affecting communities in Alaska and also hearing 
about possible solutions that can link communities everywhere.
    Global warming is a fact. The science is solid. We know that we are 
the cause, and that we will have to be the solution. And how that 
solution looks will likely define the global economy for the next 50, 
60, 70 years. The challenge is that while we know this is a serious 
issue, it is not the issue most people in America are concerned about.
    When I am talking to my constituents, their number one concern is 
jobs.
    In my state, we have an unemployment rate hovering near 13 percent. 
Nationally, there are 15.1 million people who are unemployed. When we 
count the number of people who are no longer receiving benefits, or who 
are working part-time for economic reasons, that number jumps to over 
26 million people.
    Families in my state, and around the country, are deeply worried 
about their jobs and their own economic situation. They are worried 
about paying the mortgage, or paying the rent, putting food on the 
table, and paying their bills. Winter is coming on, and people are 
turning up the heater, and they're extremely concerned about energy 
prices and how that affects their checking accounts.
    So as we address climate change, we need to keep our focus on jobs 
and American families who are already struggling with rising energy 
bills.
    We know that the clean energy economy represents an incredible 
opportunity for growth. In my state of Michigan, we know how to build 
things and grow things. We are manufacturing experts, with some of the 
best engineers supported by some of the finest research universities in 
the world. By making the right choices, we can become a leader in clean 
energy research and manufacturing.
    And these manufacturing solutions are also solutions for 
communities in Alaska having to fight the effects of climate change. 
New energy sources such as wind can help alleviate both the costs to 
communities to import in fossil fuels and the costs borne from these 
energy sources that result in the need to adapt to climate change.
    But we have to do this right.
    So when we're talking about clean energy, it's not enough that we 
use those technologies, we have to make them here too.
    There are 8,000 parts in a wind turbine--and all of them can be 
made in Michigan. Solar panels require advanced manufacturing 
techniques, which we happen to be very good at in Michigan.
    But we are in a race to be leaders to make these new technologies. 
The last thing we want is for communities in Alaska or Michigan to be 
forced into purchasing these new clean energy technologies from abroad. 
Our jobs and our national security depend on doing better.
    Climate change is an important issue--probably the defining issue 
of our time. How we respond to the current climate challenges will have 
a lasting impact on the direction of our economy and on the future of 
our country. We must get this right. We must do this in a way that not 
only reduces greenhouse gas emissions, but that creates jobs and 
opportunities in engineering, agriculture, information technology, and 
most importantly, in manufacturing.

    Senator Begich. Thank you very much. Thanks, Debbie. It is 
true every time, whatever committee, I don't even care if it's 
the Budget Committee, I usually say, when I start talking about 
something, I kind of weave in the Alaska component and then 
whoever is on the panel, whoever they might be, the odds are 
we're going to invite them to Alaska.
    We've been very fortunate over the last year and a half to 
have seven Cabinet Secretaries here traveling throughout the 
state, most recently the Commandant of the Coast Guard Admiral 
Papp who visited and actually spent kind of a whirlwind tour 
visiting the state which was very impressive to have him here. 
I think it was his first major visit, if I remember, Admiral. 
So it was very impressive and so we will continue to bring more 
Federal officials up here, as well as my colleagues, just to 
get a better sense of what goes on here and the travel that it 
takes.
    Some of my colleagues now understand that when I say I've 
got to go home for the weekend, it's not as simple as hopping 
in a cab or taking a bus. It's a little longer.
    Let me introduce the panel and then, Mayor, I'm going to 
ask you to start off, if that's OK. We are again fortunate to 
have many people representing different organizations.
    First, Rear Admiral Chris Colvin, Commander of the Coast 
Guard 17 District, which includes all of Alaska.
    Laura, and I'm going to--I know I'm going to mess up your 
name. So I'm going to try here. Furgione, Laura Furgione, who 
heads NOAA's Arctic Strategy Team and who is going to tell us 
more about how the government is going to help us operate 
safely in sustaining the Arctic, and we had a great--on the 
Coast Guard plane on the way up here, we had some incredible 
technology to see the impacts within the atmosphere as we 
traveled on the Coast Guard plane. It's a partnership between 
the two which is very impressive and I have to tell you I 
couldn't understand all the numbers and what they meant but I 
know it was good because they were low. So that was a good 
thing and there was not many red lines and that was a positive.
    Also, as I mentioned, Mayor, thank you for hosting us here. 
Mayor Itta, who is a long-time leader in his community and 
through the state and a whaling captain, and recently I 
understand you were featured in Parade magazine which you are 
now a star. I know.
    Mary Pete, an educator and subsistence advocate and the 
newest member of the U.S. Arctic Research Commission which we 
thank you.
    Also, Richard Glenn, the Vice President of the Arctic Slope 
Regional Corporation for Nonprofit Corporation committed to 
preserving the traditional values and protecting the land, 
environment and culture of the people of the North.
    And Marilyn Crockett, always good to see you, Executive 
Director of the Alaska Oil and Gas Association, which 
represents the majority of the oil and gas operators in Alaska, 
as well as servicing companies. So, we thank you for coming all 
the way up to be able to be here on this panel.
    Mayor Itta, we will start with you on opening comments, if 
that's OK, and then, Admiral, we'll go to you, Laura, then 
we'll go to you, and then we'll continue down the panel.
    I wanted to let you know we combined the panels because of 
time and we were late arriving, but let's go ahead, Mayor, and 
we have about--if you can keep your comments to about 5 minutes 
each, I will do my best not to invoke my old assembly days.
    Mayor Itta understands what that means, where I say time is 
up, but, no, Mayor.

              STATEMENT OF EDWARD S. ITTA, MAYOR, 
                      NORTH SLOPE BOROUGH

    Mr. Itta. OK. Thank you, Mr. Chairman, Senator Stabenow. 
Welcome, and also to our fellow speakers up here, and also 
everybody else that came up. We want to welcome you.
    Again, I just really am thankful that you took the time, 
considering all the changes we've had to make because of the 
funeral and still be able to make it up here and I think that 
shows the level of commitment and interest that you have in 
hearing from the people and we're particularly thankful.
    You are always welcome here and we appreciate your efforts 
on behalf of our people and all Alaskans. I also want to give 
you both our big Arctic warm welcome. We didn't provide snow 
for you today just for that. OK?
    You know, while we may be small towns, by any standard 
Barrow is really off the beaten path, if you will, and so we 
appreciate you taking the extra effort to make the journey all 
the way up here and see what the people of America's Arctic 
have to say and during your brief stay we hope you'll find that 
our welcome is really warm and even if our weather isn't.
    So I'm grateful for the chance to share with you a few 
thoughts today about issues that concern us and fall under your 
committee's jurisdiction. Climate change has attracted a lot of 
interest in recent years and since the Arctic is the planet's 
heat sink, this region here is kind of like ground zero when it 
comes to the visible effects of a warming climate.
    The Arctic Ocean's permanent ice pack, we know, is melting 
away at an unprecedented rate. While this has become a 
widespread concern only in recent years, it is something that 
our people have observed for many decades.
    When you live in a place like this for as long as we have, 
lived along this coast, and when your survival depends upon 
successfully hunting migratory animals across the tundra and 
out among the ice flows, it is not surprising that Inupiat 
possess vast environmental knowledge, a base, if you will.
    We call it traditional knowledge. Scientists, who like to 
reduce things to initials, call it TK. It is the accumulated 
understanding about environmental conditions here that have 
been passed on from generation to generation for thousands of 
years. That's what enabled us to survive in one of the harshest 
climates on Earth.
    Some of our elders were aware of the current environmental 
shift decades ago, as I stated, long before it became a 
national concern. They didn't call it climate change but they 
observed how the ice was further from the shore in the fall, 
thinner in the spring than it had been in the past, the snow 
cover didn't last as long on the tundra in the spring, and ice 
cellars where we store our food were increasingly subject to 
the melting of the permafrost. We lived this. We see this.
    Erosion, eating away at the edges of our coastal villages, 
the signs were there, but nobody imagined that this process 
would accelerate to the extent that it has in recent years.
    So there is a wealth of historical perspective among our 
elders and our hunters and the science community is paying more 
attention to traditional knowledge these days and we're 
thankful for that.
    Researchers acknowledge that TK can inform their work with 
the longer view and a continuity that comes from the daily 
encounter that our hunters and that our elders have had with 
this environment.
    I hope that the Federal Government will increase its 
commitment to Arctic research, that researchers will take 
advantage of the facilities offered by the Barrow Arctic 
Science Consortium Facility, and that scientists and local 
experts will develop closer ties as we try to understand how 
climate change is affecting the animals' habitat and humans 
over time.
    The visible effects of climate change amount to a profound 
set of impacts on our region. We anticipate another set of 
impacts from offshore oil and gas exploration and development. 
We would be a lot happier if this activity were happening 
onshore in ANWR and we stand ready to speak up if the politics 
ever began to look more promising, but offshore seems to have 
the support of both government and industry and given that 
reality, my goal is to make sure that any offshore activity is 
conducted under the safest conditions with the best mitigations 
and regulatory framework that recognizes the unique risks that 
we face and that we must live with.
    Our culture is anchored in the traditional hunt of the 
bowhead whale along this coast and when something goes wrong 
with an oil rig out there, we are the only people whose lives 
may be drastically affected by the long-term impacts.
    In closing, that is why I've been promoting a set of 
offshore policy positions for more than 2 years now and I 
salute our delegation for having sponsored legislation that 
addresses a number of these positions.
    Unfortunately, the tragedy in the Gulf has created 
conditions that should make these policies all the more 
marketable in Congress. But I'll be real interested to hear 
about your feelings on that.
    So with that, thank you for giving me the opportunity.
    [The prepared statement of Mr. Itta follows:]

 Prepared Statement of Hon. Edward S. Itta, Mayor, North Slope Borough
    Thank you, Mr. Chairman. I want to welcome you back to Alaska and 
the North Slope. You are always welcome here, and we appreciate your 
efforts on behalf of our people and all Alaskans. I also want to give a 
warm Arctic welcome to Senator Stabenow. Even by Alaska standards, 
Barrow is off the beaten path, so we appreciate your interest in making 
the journey to hear what the residents of America's Arctic have to say. 
And during your brief stay, we hope you'll find that our welcome really 
is warm, even if our weather isn't.
    I'm grateful for the chance to share a few brief thoughts with you 
today about issues that concern us and fall under your committee's 
jurisdiction. Climate change has attracted a lot of interest in recent 
years, and since the Arctic is the planet's heat sink, this region is 
kind of like Ground Zero when it comes to the visible effects of a 
warming climate.
    The Arctic Ocean's permanent ice pack is melting away at an 
unprecedented rate. While this has become a widespread concern only in 
recent years, it is something that our people have observed for many 
decades. When you live in a place for as long as we have lived along 
this coast, and when your survival depends on successfully hunting 
migratory animals across the tundra and out among the ice floes, it is 
not surprising that the Inupiat possess a vast environmental knowledge 
base. We call it ``traditional knowledge.'' Scientists who like to 
reduce things to initials call it ``TK.'' It is the accumulated 
understanding about environmental conditions here that has been passed 
on through the generations for thousands of years.
    Some of our elders were aware of the current environmental shift 
decades ago, long before it became a national concern. They didn't call 
it climate change, but they observed how the ice was farther from shore 
in the fall and thinner in the spring than it had been in the past. The 
snow cover didn't last as long on the tundra in spring, and ice cellars 
were increasingly subject to melting of the permafrost. Erosion was 
eating away at the edges or our coastal villages. The signs were there, 
but nobody imagined that this process would accelerate to the extent it 
has in recent years.
    So there is a wealth of historical perspective among our elders and 
hunters, and the science community is paying more attention to 
traditional knowledge these days. Researchers acknowledge that TK can 
inform their work with a longer view and a continuity that comes from 
the daily encounter that our hunters and elders have had with this 
environment.
    I hope that the Federal Government will increase its commitment to 
Arctic research, that researchers will take advantage of the facilities 
offered by the Barrow Arctic Science Consortium, and that scientists 
and local experts will develop closer ties as we all try to understand 
how climate change is affecting the animals, habitat and humans over 
time.
    The visible effects of climate change amount to a profound set of 
impacts on our region. We anticipate another set of impacts from 
offshore oil and gas exploration and development. We would be a lot 
happier if this activity were happening onshore in ANWR, and we stand 
ready to speak up if the politics ever begin to look more promising. 
But offshore seems to have the support of both government and industry. 
Given that reality, my goal is to make sure that any offshore activity 
is conducted under the safest conditions, with the best mitigations and 
a regulatory framework that recognizes the unique risks we must live 
with. Our culture is anchored in the traditional hunt of bowhead whales 
along this coast, and when something goes wrong with an oil rig out 
there, we are the only people whose lives may be drastically affected 
by the long-term impacts.
    This is why I have been promoting a set of offshore policy 
positions for more than 2 years now. And I salute our delegation for 
having sponsored legislation that addresses a number of these 
positions. The tragedy in the Gulf has created conditions that should 
make all of these policies more marketable in the Congress. But I'll be 
interested to hear your feelings on that.
    Quyanaqpak.

    Senator Begich. Thank you, Mayor Itta. Admiral Colvin, I'll 
turn to you and your testimony.

         STATEMENT OF REAR ADMIRAL CHRISTOPHER COLVIN,

           COMMANDER, COAST GUARD DISTRICT SEVENTEEN,

                        U.S. COAST GUARD

    Admiral Colvin. Good morning, Senators. The Arctic is 
perhaps the most exciting and significant geopolitical issue of 
our generation. There are various potential geopolitical 
futures for an evolving Arctic, but as of today we don't know 
what the Arctic will look like by mid century. So today is our 
opportunity to shape the future.
    Today the United Sates does not have persistent presence in 
the Arctic. That might preserve those options for future 
generations. If the national intent is to only do science in 
the Arctic, we're doing a reasonably good job of it, although 
the Nation does need to conduct increased oil spill response 
research in the Arctic, but if the national intent is to 
preserve and enhance U.S. sovereignty in the Arctic, i.e., 
maintain awareness and oversight of activities in the U.S. 
Arctic, there is vast room for improvement.
    For example, the Nation needs operational icebreakers. 
Currently, our two Polar Icebreakers are inoperative. 
Maintenance and operating funds for the Polar Icebreakers need 
to be returned to the Coast Guard.
    Why do we care more about the Arctic today than a decade 
ago? Simply stated, because there is water where there used to 
be ice, lots of water, and more water means increased human 
activity and increased human activity is what the Coast Guard 
has been observing in the Arctic.
    Last year, for the first time ever, large merchant ships 
transited the northern route above Russia while at the same 
time cruise ships transited the Northwest Passage above Canada.
    Currently, a 70,000 metric ton cargo of gas condensate is 
heading above Russia to Asia via the Bering Strait. It is 
important to remember that there is only one way in and out of 
the Arctic for over half the world and that's the Bering 
Strait. The Bering Strait may become the Gibraltar of the 
future.
    Why does the Arctic matter to the United States? Because 
the highest potential concentrations of oil and gas in the 
Arctic coincidentally lie directly above Alaska, according to 
the USGS's KERA Study. Other minerals, like the world's highest 
concentrations of zinc, currently being mined at the Red Dog 
Mine above the Arctic Circle, may be found in the Arctic.
    The U.S. Coast Guard has been operating in the Arctic since 
the whalers first were here in the 1800s. One of the greatest 
Coast Guard rescues ever involved saving 265 sailors trapped in 
the ice north of Point Barrow in 1898. I'm not sure if you were 
there then.
    [Laughter.]
    Admiral Colvin. Still, the Coast Guard has much to learn 
about operating in the Arctic and we learn it by working with 
local experts, like the Northwest Borough's whaling captains, 
and by conducting short operations, like Arctic Crossroads, to 
prototype equipment and to learn about the local area.
    We also take the opportunity to bring doctors and dentists 
and veterinarians in to help the local people, much like the 
famous Revenue Cutter Captain Mike Healey did in bringing 
reindeer across from Siberia to help feed Native populations 
back in the late 1800s.
    Our lessons learned from operation of Arctic Crossroads are 
varied and predictable. There is a lack of infrastructure to 
support operations. HF Communications do not work well. 
Satellite antennas often point too low on the horizon to be 
effective. It is difficult to launch and operate small boats 
from shore.
    Every summer we are challenged to put together Arctic 
Crossroads due to sparse resources and minimum funding and old 
ships. This summer the Polar Sea broke down and was unable to 
participate in our operations up here and much needed ships. 
The buoy tender that was to have participated was also canceled 
due to deep water horizon.
    As Commandant said when he visited the Arctic last week, 
the Coast Guard needs additional resources to operate in the 
Arctic without negatively impacting other missions.
    I fear in the not-too-distant future a large ship might 
sink along the Northern Coast of Alaska. The Coast Guard will 
be hard-pressed to rescue survivors and will be hard-pressed to 
oversee the cleanup of any associated oil spill. The nearest 
Coast Guard Search and Rescue resources are about a thousand 
miles away and across two mountain ranges in Kodiak, Alaska.
    In conclusion, Congress has the same responsibilities and 
authorities in the Arctic Ocean as in any other ocean or the 
Great Lakes. The challenge is finding the resources to properly 
execute those responsibilities.
    Thank you for your time and I look forward to your 
questions.
    [The prepared statement of Admiral Colvin follows:]

   Prepared Statement of Rear Admiral Christopher Colvin, Commander, 
            Coast Guard District Seventeen, U.S. Coast Guard
    Good morning, Chairman. I am pleased to be here today to discuss 
the Coast Guard's operational presence in a changing Arctic and the 
need for Federal infrastructure in the region.
Icebreaking Capacity in the Arctic
    Just over a year ago, Admiral Allen testified before Congress on 
Coast Guard icebreaking. He stressed the importance of maintaining our 
Nation's ability to project maritime presence and strength throughout 
the world, and specifically in the Arctic region. Arctic policy has 
been further defined by National Security Presidential Directive (NSPD) 
66/Homeland Security Presidential Directive (HSPD) 25 on Arctic Region 
Policy. This Directive provides specific policy objectives while 
acknowledging the effects of climate change and increased human 
activity in the Arctic region. In addition, President Obama recently 
signed Executive Order 13547, which approved and directed Federal 
departments and agencies to implement the Final Recommendations of the 
Interagency Ocean Policy Task Force. One of the national priority 
objectives the Task Force highlighted was to address the changing 
conditions in the Arctic through better stewardship. In executing these 
directives, we must be prepared to address the impacts of more open 
water, an increasing population of maritime users operating in a 
fragile and challenging environment, and assertion of claims to the 
vast natural resources of the region. The Coast Guard, through the 
Department of Homeland Security and working closely with the 
Departments of State and Defense, must work to improve maritime domain 
awareness, preserve the global mobility of United States military and 
civilian vessels and aircraft, and project a sovereign United States 
maritime presence in the Arctic region.
    To that end, the Coast Guard has continued expansion of its 
operations in Arctic waters during open water periods, while also 
ensuring its multi-mission capacity is available to support execution 
of Coast Guard responsibilities year round. As you know, the Coast 
Guard has three polar icebreakers, of which only the Healy, a medium 
icebreaker, is currently operational and is capable of fulfilling most 
of the current icebreaking needs in the Arctic and is specifically 
adapted for scientific research. The Healy is currently operating in 
the Arctic conducting hydrographic mapping of the U.S. continental 
shelf. Polar Sea, which is one of our two heavy icebreakers, is 
currently laid up due to a major engineering casualty. Our other heavy 
icebreaker, Polar Star, will be fully ready for operations in 2013 
after completing a major reactivation project, funded by the 2009 and 
2010 appropriations. These three ships represent our Nation's current 
polar icebreaking capacity.
Arctic Trends
    The Arctic environment is fragile and often harsh , and the 
distances involved in Arctic operations can be immense. Observations 
and trends have been reported that could increase the intensity of our 
operations and impact our access requirements:

  <bullet> Dynamic changes in ice conditions: The steady recession of 
        the ice edge continues to open new water in the summer months. 
        As such, dangers to shipping may increase because of the 
        dynamic and unpredictable movement of ice.

  <bullet> Expanding Resource Development: Based on assessments by the 
        U.S. Geological Survey, there have been projections that an 
        estimated 22 percent of the world's oil and natural gas could 
        be located beneath the Arctic with some portion of 
        undiscovered, technically recoverable resources located within 
        the U.S. Exclusive Economic Zone (EEZ). Reflective of this 
        value, oil companies bid nearly $2.7 billion to lease a part of 
        the Chukchi Sea mineral rights.

  <bullet> Eco-tourism: This industry continues to expand as cruise 
        ships, carrying hundreds of passengers, test the limits of safe 
        navigation in Arctic waters. To date, we have already observed 
        an increase by one in the number of adventure cruises from last 
        year's for Northwest Passage Transits. Two cruise ships 
        recently transited the Northwest Passage, one from the east and 
        one from the west with 164 and 184 passengers respectively.

  <bullet> Fish Stock Migration: As the ice edge recedes and water 
        temperatures change, the North Pacific Fishery Management 
        Council reports an increase in fish stocks being observed in 
        the Arctic waters north of the Bering Strait. As a result, 
        fishing vessels have been observed moving further north, which 
        could lead to increased foreign incursions into the U.S. EEZ.

  <bullet> EEZ Sovereignty Claims: With the increased level of open 
        water comes more ability to research and map the oceans floors. 
        This research, including hydrographic surveys and bottom 
        sampling may serve as precursors to international sovereignty 
        claims to extended continental shelves pursuant to the Law of 
        the Sea Convention. The Healy has been working over the past 
        few summers with a Canadian icebreaker, the Louis St. Laurent, 
        to collect scientific data necessary to assert claims to an 
        extended continental shelf in the Arctic.
National Arctic Policy
    The United States is an Arctic nation. As the ice edge continues to 
recede in the summer, the extent of navigable waters increase. As we 
adjust to this dynamic, it is critical to recognize the Arctic Region 
as environmentally fragile, rich in natural resources, and of 
significant national importance and international interest. We must be 
prepared to meet current and future demands. The objectives established 
in the Arctic Region Policy, and reflected in the new national ocean 
policy, include:

  <bullet> Meeting national security and homeland security needs 
        relevant to the Arctic Region.

  <bullet> Protect the Arctic environment and conserve its biological 
        resources.

  <bullet> Ensuring natural resource management/economic development 
        are sustainable.

  <bullet> Strengthening institutions for cooperation among the eight 
        Arctic nations.

  <bullet> Enhancing scientific monitoring and research into 
        environmental issues.

  <bullet> Involve the Arctic's indigenous communities in decisions 
        that affect them.

    Several of the Coast Guard's statutory missions have a significant 
role in supporting the objectives established in NSPD-66/HSPD-25 and 
the National Ocean Policy.
    Additionally, the multi-nation Arctic Marine Shipping Assessment 
(AMSA) published in April 2009 provided a comprehensive assessment of 
the current uses and future impacts of increased accessibility and 
maritime activity in the Arctic. The report concluded that safe, 
secure, and environmental sound maritime commerce in the Arctic region 
will depend on adequate infrastructure to support shipping activity, 
search and rescue capabilities, short and long range aids to 
navigation, high-risk area vessel-traffic management, iceberg warnings, 
shipping standards, and comprehensive measures to protect the marine 
environment.
Supporting Execution of the National Arctic Policy Objectives
    Today, one thing is certain regarding the Arctic: there is more 
navigable ocean during summer months where there used to be ice, and 
the Coast Guard has statutory and regulatory responsibilities in that 
ocean. The Coast Guard is the Nation's primary maritime safety, 
security, environmental protection and -law enforcement agency. As 
such, we hold a significant responsibility in executing the Arctic 
Region Policy and the National Ocean Policy. In order to better perform 
our anticipated role, we have developed an Arctic Strategic Plan to 
ensure the Coast Guard is both prepared and able to engage and conduct 
statutory operations in the Arctic. From my perspective as the 
Commander of the Seventeenth Coast Guard District, in addition to our 
existing mission demands, the Coast Guard must actively participate in 
the multi-agency effort to address current and future challenges 
associated with the Arctic.
Meeting Homeland Security Needs in the Arctic
    As part of a multi-agency effort to implement the Arctic Region 
Policy, we continue to push forward and assess our Arctic limits. In 
the summers of 2008 and 2009, we established Forward Operating 
Locations (FOL) on the North Slope. We employed Coast Guard small 
boats, helicopters, and Maritime Safety and Security Teams (MSSTs) in 
Prudhoe Bay, Nome, and Barrow to increase maritime domain awareness and 
test capabilities in the Arctic environment. We will continue those 
efforts this summer, when there is the most open water, by redeploying 
Forward Operating Location bases in most of the same places. Currently, 
these FOLs operate on a limited basis due to weather conditions, 
distances, and a lack of shore based infrastructure. We will institute 
changes based on lessons learned last year, as we continue to develop 
and refine our knowledge base on operations in the Arctic.
    To evaluate activity trends in the Arctic, the Coast Guard 
commenced extensive Arctic Domain Awareness flights. Coast Guard C-130 
flights originated out of a temporary Forward Operating Location in 
Kotzebue last summer and will continue later this summer. These flights 
help develop a complete awareness of all private, commercial, and 
governmental activities in the Arctic.
Protecting the Maritime Environment
    To help protect the environment of the Arctic Region, we must 
continue to partner with companies operating in the region to support 
pollution response. Recognizing that oil spill clean-up is 
significantly more difficult in colder temperatures and ice-covered 
waters, enhancing prevention measures is even more critical as a means 
to reduce risk and mitigate against potential environmental damage. 
Moreover, the combination of a harsh environment and limited response 
resources and capabilities necessitates that awareness, contingency 
planning, and communications amongst stakeholders are effective and 
efficient.
    While prevention is critical, so is response capability. We 
continue to exercise the Vessel of Opportunity Skimming System (VOSS) 
and the Spilled Oil Recovery System (SORS) in the Arctic. Both of these 
systems enable vessels to collect oil in the unfortunate event of a 
discharge. The VOSS is deployable and capable of being used on a 
variety of ships and the SORS is permanently stored and deployed from 
the Coast Guard's 225-foot ocean-going buoy tenders.
    To better understand the impact the northward movement of fish 
stocks into the Arctic will have on sustainability, a regional 
management plan is needed. The North Pacific Fisheries Management 
Council imposed a moratorium on fishing within the U.S. EEZ in the 
Arctic until assessment of the practicality of sustained commercial 
fishing in the region is completed. Regardless of the outcome of the 
assessment and follow-on management plan, it is certain the Coast Guard 
will play a critical role in its enforcement.
Facilitating Safe, Secure, and Reliable Navigation
    With the deployment of the Coast Guard buoy tender SPAR to the 
Arctic last year the Service began an in-depth Waterways Analysis 
Management Survey (WAMS). This ongoing survey applies criteria 
described in the AMSA to assess safe shipping routes, aids to 
navigation, and vessel routing and traffic system requirements in the 
Arctic.
Supporting Multi-Agency Arctic Region Policy Implementation
  <bullet> Strengthen Cooperation Among the Eight Arctic Nations

      The Coast Guard continues to support international and 
            multilateral organizations, studies, projects, and 
            initiatives. Some key groups, projects, and legal 
            frameworks include the Arctic Council, AMSA, Ilulissat 
            Declaration (2009), and the U.N. Convention on the Law of 
            the Sea (UNCLOS), to which the U.S. has not yet become a 
            party. In April 2009, Coast Guard District Seventeen and 
            the Canadian Coast Guard held a Joint Maritime Pollution 
            Contingency Plan Table Top Exercise for oil spill responses 
            in the Beaufort Sea. In addition, District Seventeen has 
            excellent communications and working relationships with 
            Russian agencies responsible for law enforcement, search 
            and rescue, maritime pollution response, and other missions 
            in the Arctic. Consistent with such efforts, the Coast 
            Guard will continue to engage Arctic nations and 
            international organizations to identify and meet current 
            and future challenges associated with the Arctic.

  <bullet> Involve the Arctic's Indigenous Communities in Decisions 
        that Affect Them

      Some of the biggest successes and lessons for the way forward 
            that the Coast Guard has gained in recent years have come 
            from our continued engagement with Alaska Native Tribes. 
            Their extensive knowledge, assistance, and collaboration 
            have been invaluable to our safe operations and successful 
            mission execution. The Coast Guard has also provided 
            valuable assistance, including boating safety exchanges and 
            medical, dental, and veterinary outreach programs while 
            operating in remote villages on the North Slope. We will 
            continue to focus on working with these groups, while 
            ensuring their equities are recognized and protected to the 
            greatest extent possible, as we adapt to the challenges 
            associated with changing operations in the region.

  <bullet> Enhance Scientific Monitoring and Research into 
        Environmental Issues

      The Coast Guard continues to support the Arctic research efforts 
            of the scientific community through ongoing operations 
            onboard the CGC HEALY this summer and early fall. These 
            missions will support the Naval Research Lab, National 
            Science Foundation, Office of Naval Research, and the 
            Department of State to continue mapping of the continental 
            shelf. Additionally, Air Station Kodiak has and will 
            continue to provide scientific research support from its C-
            130s through deployment of data buoys in the Arctic.
National Arctic Capacity
    While our summer operations continue to provide valuable lessons 
and help us gain better insight regarding the Arctic, we must 
acknowledge the seasonal limitation of these efforts. When summer 
season commercial activity expands, mariners will test the boundaries 
of safe navigation, and as the eight Arctic nations continue to collect 
data to make jurisdictional claims, it is important to maintain an 
appropriate presence in the Arctic for law enforcement and response 
purposes with vessels capable of accessing the region. The expansive 
distances, severe weather conditions, and lack of land-based 
infrastructure continue to challenge our capabilities.
    As established by NSPD-66/HSPD-25 and noted previously, the Coast 
Guard has jurisdiction and statutory mission requirements over Arctic 
waters and the demands associated with those obligations will increase 
as waterways continue to open. In addition, the Coast Guard will work 
with its interagency partners to address stewardship requirements in 
the Arctic consistent with the new National Ocean Policy. Future 
mission requirements for this vast, remote, and exceptionally harsh 
environment have been studied and are currently being reviewed. The 
full multi-agency missions and asset gaps for the future have yet to be 
determined.
    In order to better understand our future roles and requirements in 
both the Arctic and Antarctic, the Coast Guard contracted a consultant 
to review current mission requirements and assess how changing Arctic 
conditions might affect those requirements. The contractor has 
completed their report and the Coast Guard is reviewing the study. 
Information from this study, combined with lessons learned over the 
past two summers, will help the Coast Guard's ongoing efforts to 
determine the right mix of assets for the Arctic. The Coast Guard will 
leverage the ongoing work of other agencies that are also confronting 
mission impacts due to changing Arctic conditions, such as the Navy and 
NOAA. Working together under the auspices NSPD-66/HSPD-25 we will 
define and install the necessary infrastructure in the region. The 
Coast Guard is also partnering with DHS in an upcoming Workshop at 
University of Alaska Fairbanks to identify and prioritize research 
opportunities to support Coast Guard operations in the Arctic. The 
Workshop will emphasize infrastructure, communications, and sensors.
     We will continue to update our Waterways Analysis & Management 
System (WAMS) to determine the changing needs and uses of the Arctic 
Federal navigational system. We are also moving forward with a Bering 
Strait Port Access Routing Study which is a preliminary document to 
establish Traffic Management Systems required by the International 
Maritime Organization for recognition of the international community.
    It is currently premature to plan shore-based facilities without a 
clear understanding of what infrastructure will be required (e.g., 
deepwater support harbors, small boat stations, permanent air stations, 
etc). The Coast Guard will continue to monitor the direction industry 
takes, be it tourism, outer continental shelf (OCS) development, 
fishing or Alaska Native needs.
Coast Guard Icebreaker Assets
    The HEALY, commissioned in 2000, has an expected service life of 30 
years. The Polar Sea and Polar Star were both commissioned in the 
1970s, and are fast approaching their extended service lives of just 
over 30 years. The Polar Sea had a significant two-year refit in 2006, 
extending its projected service life to 2014.
    Currently, we are engaged in a multi-year, $62 million project to 
reactivate Polar Star. The cutter is planned to be completed and ready 
to return to operations in 2013. This project will extend Polar Star's 
planned operational service life by 7 to 10 years.
Conclusion
    The Arctic is a vast and challenging environment going through 
significant changes. The unique nature of the region, magnitude of open 
water, harsh weather and great distances involved, and new users are 
leading to increased challenges to national sovereignty. As a Nation, 
we now have an Arctic Region Policy and a National Ocean Policy and the 
Coast Guard has a significant role in implementing those policy 
directives. We are pushing forward to meet our responsibilities using 
the resources available now.
    To meet our national responsibilities in the Arctic, we must ensure 
we are prepared for the challenges associated with this unique and 
harsh environment. While we work to refine future mission requirements 
and identify the precise mix of assets needed to perform them, Coast 
Guard icebreakers stand ready to meet our current icebreaking needs in 
the Arctic. Other Coast Guard resources are also expanding their 
knowledge, experience, and competence to carry out mission 
responsibilities in this vast and vitally important region.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Begich. Thank you, Admiral. Let me go to next Laura 
Furgione. I'll get it down. Let me go and have you do your 
testimony next, please.

        STATEMENT OF LAURA K. FURGIONE, DEPUTY ASSISTANT

           ADMINISTRATOR FOR WEATHER SERVICES, NOAA,

                  U.S. DEPARTMENT OF COMMERCE

    Ms. Furgione. Thank you. Good morning, Senator Begich, 
Senator Stabenow, Mayor Itta, and distinguished guests.
    My name is Laura Furgione, and I'm the Deputy Assistant 
Administrator for Weather Services at the National Oceanic and 
Atmospheric Administration, NOAA.
    I've called the State of Alaska home for 15 years. During 
this time I worked for NOAA's National Weather Service in 
Kodiak, Juneau, Fairbanks, and from 2004 to 2008, in Anchorage 
at the National Weather Service, as Alaska Regional Director.
    Thank you for inviting me to testify before you this 
morning. Before I begin my official testimony, I do want to 
devote a portion of my time to Senator Stevens, a tribute to 
his lifelong dedication. He was such a strong advocate for 
NOAA, the National Weather Service, the State of Alaska, and 
the Arctic.
    On May 2007, I was able to present him with the Director's 
Award, celebrating his contributions to the expansion of the 
Alaska Data Buoy Network from 5 buoys to 19 buoys.
    When I started with the Weather Service, we actually only 
had two buoys, one in the Central Bering and one in the Gulf of 
Alaska. More buoys are weather sentinels of the sea. In 
addition to providing data for operational marine forecast 
warnings and atmospheric models, buoy data are used for a wide 
variety of scientific research programs. This is merely one 
example of how Senator Stevens assisted in expanding our 
understanding of the Arctic and its surrounding waters.
    My deepest sympathy to his family. May he rest in peace.
    Is it on now? Is that better?
    Senator Begich. Try it one more time.
    Ms. Furgione. Now? Oh, wow. OK. See, I didn't really need a 
microphone.
    Senator Begich. You were doing pretty good without it.
    Ms. Furgione. Now back to my formal testimony. This hearing 
puts a well-deserved spotlight on emerging Arctic issues.
    On behalf of NOAA, I'd like to thank the Committee on 
Commerce, Science, and Transportation for its continued 
attention to the issues associated with the changing Arctic and 
the myriad of impacts to our Native culture, subsistence in the 
Arctic, and the ecosystems on which we depend.
    I also recognize Senator Begich and Senator Stabenow for 
their leadership and support on Arctic issues, including the 
numerous important pieces of Arctic-related legislation that 
you mentioned.
    The Obama Administration is looking closely at Arctic 
policy and management. This is evidenced by the identification 
of the Arctic as one of the ``special emphasis'' in the final 
recommendations of the Interagency Ocean Policy Task Force that 
was adopted by the President July 19, 2010.
    The Ocean Policy Task Force final recommendations calls for 
better ways to conserve, protect, sustainably manage Arctic 
coastal ocean resources, new collaborations and partnerships to 
better monitor and assess environmental conditions, and 
improvement of the scientific understanding of the Arctic 
system and how it's changing in response to climate-induced and 
other changes.
    As you know, there's now widespread evidence of climate 
change in the Arctic region, most dramatically observed in loss 
of sea ice. For in the last 5 years, we have witnessed the 
lowest sea ice extents on record as well as a 35 percent 
decrease in thicker multiyear ice. Recent Arctic temperature 
increases are more than doubled in those found at more 
southerly latitudes, suggesting the Arctic may be 
disproportionately affected by changes in the Earth's climate.
    The Arctic's 2008 Annual Mean Air Temperature over land was 
the fourth warmest on record, which continues a long-term 
upward trend. In addition, we're detecting shifts in ecosystems 
from the Aleutian Islands to here in Barrow. I even understand 
they saw an Opelio crab here in the Beaufort Sea.
    These changes are already being felt in communities around 
the Arctic and especially here in the State of Alaska. As my 
boss, Dr. Jane Lubchenco, the NOAA Administrator and Under 
Secretary of Commerce for Oceans and Atmosphere, has said, 
``Most of what we've seen in the Arctic Ocean has led us to 
believe that warming is happening even faster than many of our 
models are predicting. The melting of the ice in the Arctic 
Ocean is happening at a faster pace than we had predicted and 
that's creating new opportunities, opportunities that need to 
be pursued in ways that are precautionary and take into account 
the need to ensure those systems remain healthy and resilient 
through the coming changes.''
    As the United States confronts these Arctic challenges and 
opportunities, it is evident that despite the wealth of 
traditional scientific knowledge, exploration, and research to 
date, basic data is still lacking in the Arctic.
    In order to effectively manage the various Arctic 
interests, accurate information about environmental conditions 
in the Arctic is needed. Doug DeMaster, the Director of NOAA's 
Alaska Fisheries Science Center, and I led a team of NOAA 
experts to develop NOAA's Arctic Vision and Strategy.
    As the uses of the Arctic evolve, we believe it is 
important that decisions related to conservation, management, 
and use are based on sound science and support healthy, 
productive, and resilient communities and ecosystems.
    In addition, because of the global impacts of changes in 
the Arctic environment, we seek to better understand and 
predict those changes. Our Arctic Strategy integrates and 
aligns our numerous and diverse capabilities and supports the 
efforts of our international, Federal, state, local, tribal 
partners and stakeholders.
    NOAA's Arctic Vision and Strategy has six priority goals. 
The first, which is our organizing principle, is forecast 
changes in sea ice. The second: strengthen our foundational 
science to understand and detect Arctic climate and ecosystem 
changes. The third: improve our weather and forecast warnings, 
weather and water forecast and warnings. My hydrologist would 
be mad at me to mess that up. Enhance international and 
national partnerships, improve stewardship and management of 
ocean and coastal resources in the Arctic, and advance 
resilient healthy Arctic communities and economies.
    These goals were selected because they represent areas 
where NOAA has the expertise to address emerging Arctic issues 
and it also meets two criteria: one, providing the information, 
knowledge, and policies to meet our mandates and stewardship 
responsibilities, and, also, providing the information, 
knowledge, and services to enable others to live and operate 
safely in the Arctic.
    The choices we make today can have pivotal impacts on the 
future state of the Arctic. There is a great deal of work to be 
done and NOAA, in collaboration with our partners, is committed 
to strengthening Arctic science and stewardship and providing 
the information, products and services needed by our Arctic 
stakeholders.
    We're in the process of finalizing our Arctic Vision and 
Strategy and our next step is to engage our partners and 
stakeholders again and transform that strategy into actions 
that will support healthy, productive, and resilient Arctic 
communities and ecosystems.
    Thank you again, Senators Begich and Stabenow, for the 
opportunity to talk about NOAA's role in the Arctic. We 
appreciate your leadership and the time and attention the 
Committee is devoting to this important issue and look forward 
to working with you further.
    Thank you.
    [The prepared statement of Ms. Furgione follows:]

Prepared Statement of Laura K. Furgione, Deputy Assistant Administrator 
        for Weather Services, NOAA, U.S. Department of Commerce
    Good morning, Senator Begich, Senator Stabenow, and distinguished 
guests. My name is Laura K. Furgione, and I am the Deputy Assistant 
Administrator for Weather Services at the National Oceanic and 
Atmospheric Administration (NOAA). I called the State of Alaska, 
America's Arctic, home for 15 years. During this time, I worked for 
NOAA's National Weather Service (NWS), in Kodiak, Fairbanks, Juneau, 
and most recently, from 2004 to 2008, as the Alaska Regional Director 
in Anchorage. Thank you for inviting me to testify before you today on 
NOAA's activities in the Arctic.
    This hearing puts a well-deserved spotlight on emerging Arctic 
issues. On behalf of NOAA, I would like to thank the Committee on 
Commerce, Science, and Transportation for its continued attention to 
the issues associated with a changing Arctic and the myriad impacts to 
its people and the ecosystems on which they depend. I would also like 
recognize Senator Begich and Senator Stabenow for their leadership and 
support on Arctic issues, including the numerous important pieces of 
Arctic-related legislation that Senator Begich has worked to advance 
this Congress. The Administration is looking closely at Arctic policy 
and management, as evidenced by the work underway to implement the 
January 2009 National Security Presidential Directive 66/Homeland 
Security Presidential Directive 25 (NSPD 66/HSPD 25) on an Arctic 
Region Policy, and the identification of the Arctic as an area of 
special emphasis in the Final Recommendations of the Interagency Ocean 
Policy Task Force, adopted by the President by Executive Order on July 
19, 2010. The Ocean Policy Task Force's Final Recommendations call for 
``better ways to conserve, protect, and sustainably manage Arctic 
coastal and ocean resources . . . new collaborations and partnerships 
to better monitor and assess environmental conditions . . . [and] 
improvement of the scientific understanding of the Arctic system and 
how it is changing in response to climate-induced and other changes.''
    As you know, there is now widespread evidence of climate change in 
the Arctic region, most dramatically observed in loss of sea ice. In 4 
of the last 5 years, we have witnessed the lowest sea ice extents on 
record, as well as a 35 percent decrease in thicker multi-year sea ice 
during the same time period. Recent Arctic temperature increases are 
more than double those found at more southerly latitudes, suggesting 
that the Arctic may be disproportionately affected by changes in the 
Earth's climate. The Arctic's 2008 annual mean air temperature over 
land was the fourth warmest on record, which continues a long-term 
upward trend. And while the annual mean temperature over land for 2009 
was cooler than in recent years, the average temperature for the last 
decade remained the warmest in the record beginning in 1900. In 
addition, we are detecting shifts in ocean ecosystems from the Aleutian 
Islands to Barrow, Alaska, due to a combination of Arctic warming, 
large natural variability, and sensitivity to changing sea ice 
conditions.
    These changes are already being felt in communities around the 
Arctic and especially here in the State of Alaska where, for example, 
coastal communities like Newtok are experiencing rapidly eroding 
shorelines forcing costly and life-changing retreat inland. In the same 
way, increasing coastal storms in the autumn in recent years are 
impacting barge operations that supply coastal communities with 
necessary supplies. In other parts of the State, thawing permafrost and 
unprecedented outbreaks of insects like the spruce beetle are 
profoundly changing the landscape and presenting new risks to 
infrastructure. The availability of species that Alaskans depend on for 
subsistence and economic livelihoods is also changing, whether in the 
northward movement of marine fish species, the range of migratory 
herds, or displacement of walrus and seal populations. These impacts 
and a myriad of others present Alaskans and, by extension the Nation, 
with a broad range of overwhelming challenges.
    As Dr. Jane Lubchenco, the NOAA Administrator and Under Secretary 
of Commerce for Oceans and Atmosphere, has said:

        ``Most of what we have seen in the Arctic Ocean has led us to 
        believe that warming is happening even faster than many of the 
        models are predicting. The melting of the ice in the Arctic 
        Ocean is happening at a faster pace than we had predicted. And 
        that is creating new opportunities in the Arctic Ocean . . . 
        [opportunities that] need to be pursued in ways that are 
        precautionary and take into the account the need to ensure that 
        those systems remain healthy and resilient through the coming 
        changes.''

    As access to the region opens up because of sea ice retreat, we are 
seeing a corresponding growth in international and domestic attention 
to the Arctic--manifested in public interest in countries' extended 
continental shelf claims under customary international law as reflected 
in the United Nations Convention on the Law of the Sea--as well as 
maritime domain awareness concerns and opportunities for economic 
development and access to Arctic resources. Oil companies are investing 
more in energy exploration and recovery, and commercial shipping 
interests are anticipating one or more seasonally open trans-Arctic 
trade routes. The potential for increased cruise ship tourism, 
commercial fishing and establishment or expansion of other economic 
activities may exert pressure on the existing marine transportation 
system infrastructure and our security assets. These pressures are 
likely to make it more challenging to respond promptly to changing 
conditions in the region. These economic drivers can also threaten 
marine and coastal ecosystems as well as Arctic inhabitants already 
affected by the rapidly changing climate. Furthermore, the Arctic has 
profound significance for climate and functioning of ecosystems around 
the globe, so changes in the region affect us all. Climate changes 
already apparent in the Arctic may portend future global climatic 
conditions.
    As the United States begins to confront these Arctic challenges, it 
is evident that despite the wealth of traditional scientific knowledge, 
exploration, and research to date in some areas, basic data is lacking 
in the Arctic. In order to effectively manage the various Arctic 
interests, accurate information about environmental conditions in the 
Arctic is needed.
    A strategic approach is essential to best leverage the strengths of 
NOAA and the many agencies that have missions that relate to or impact 
Arctic resources. As the uses of the Arctic environment evolve, NOAA 
believes it is important that decisions and actions related to 
conservation, management, and use are based on sound science and 
support healthy, productive, and resilient communities and ecosystems. 
In addition, because of the global impacts of changes in the Arctic 
environment, we seek to better understand and predict changes there. 
NOAA has developed a comprehensive Arctic strategy that integrates and 
aligns our numerous and diverse capabilities and supports the efforts 
of our international, Federal, state and local partners and 
stakeholders. NOAA's Arctic Vision and Strategy (available at http://
www.arctic.noaa.gov/docs/arctic_strat_2010.pdf) has six priority goals, 
derived directly from stakeholder requirements, upon which NOAA will 
focus its efforts:

        1. Forecast Changes in Sea Ice;

        2. Strengthen Foundational Science to Understand and Detect 
        Arctic Climate and Ecosystem Changes;

        3. Improve Weather and Water Forecasts and Warnings;

        4. Enhance International and National Partnerships;

        5. Improve Stewardship and Management of Ocean and Coastal 
        Resources in the Arctic; and,

        6. Advance Resilient and Healthy Arctic Communities and 
        Economies.

    These goals were selected because they represent areas where NOAA 
has the expertise to address emergent Arctic issues that meet two key 
criteria: providing the information, knowledge, and policies to meet 
NOAA mandates and stewardship responsibilities; and providing the 
information, knowledge, and services to enable others to live and 
operate safely in the Arctic.
Forecasting Changes in Sea Ice
    Continued rapid loss of sea ice will be a major driver of large 
changes across the Arctic, and is the organizing principle for NOAA's 
Arctic Vision and Strategy. The loss of sea ice affects marine access, 
regional weather, ecosystem changes, and coastal communities. As ice 
cover diminishes, marine food webs are expected to dramatically shift 
from seafloor-dominant systems that favor commercial species such as 
crabs to water column-dominant systems that favor commercial fish 
species such as Pollock. The understanding of ice as a habitat also has 
implications for oil spill response and damage assessment. As the 
Arctic Ocean becomes seasonally passable and tourism, oil and gas 
exploration, and shipping increase, floating sea ice will present a 
major threat to maritime safety and increase the potential for oil 
spills from vessel traffic in the region.
    NOAA is currently conducting operational sea ice analysis and 
forecasts, evaluating sea ice projections through Intergovernmental 
Panel on Climate Change climate models, conducting and analyzing 
satellite and airborne observations of sea ice freeboard or thickness, 
improving satellite image analyses, and contributing to the Arctic buoy 
program. NOAA's NWS has a sea ice desk at the Anchorage Weather 
Forecast Office which provides operational sea ice forecasting in 
Alaska. In cooperation with the National Ice Center in Suitland, 
Maryland, it provides operational analyses and forecasts of sea ice 
conditions and hazards in the Arctic 5 days a week. NOAA also supports 
the National Snow and Ice Data Center, within the Cooperative Institute 
for Research in Environmental Sciences at the University of Colorado, 
where a vast array of Arctic data are stewarded and made available to 
both academic and public users.
    However, improvements in the sea ice services that NOAA provides, 
particularly model resolution and forecast frequency, and the 
integration of different types of observations (including sea ice 
characteristics and local knowledge) into the forecasts would enhance 
our understanding of the Arctic environment. For operational planning 
purposes, it is important that sea ice atlases for Alaskan waters are 
up-to-date. To support infrastructure planning and development, 
industry, state and local governments, and Federal agencies would 
benefit from seasonal to multi-decadal sea ice projections to make 
informed decisions. Research and modeling of Arctic processes and 
anthropogenic effects are required to achieve these projections, 
understand the impacts of sea ice loss, and improve weather and climate 
forecasts for the Arctic and northern mid-latitude regions. NOAA's goal 
is to provide accurate, quantitative, daily-to-decadal sea ice 
projections in support of safe operations and ecosystem stewardship 
during this time of rapid environmental change.
Strengthening Foundational Science to Understand and Detect Arctic 
        Climate and Ecosystem Changes
    There is also great uncertainty in tracking the types and 
magnitudes of social and ecological impacts caused by Arctic climate 
changes and economic development. For example, the response of marine 
primary production from additional loss of sea ice and the impacts on 
higher levels within the food chain are largely unknown. Other examples 
of changes in the Arctic are the thawing of permafrost, increased 
coastal erosion, sea level changes, shifts in land and marine 
transportation patterns, and changes in land-based human subsistence 
resources. To adequately track these changes, sustained observations 
are essential. Monitoring and understanding climate change in the 
Arctic is important for other socioeconomic applications as well, 
including infrastructure protection related to sea level changes, 
transportation, and community resilience.
    NOAA has a variety of ongoing and/or recent Arctic-focused climate 
and ecosystem projects. NOAA operates a manned Atmospheric Baseline 
Observatory six miles east of Barrow, Alaska, to measure changes in 
atmospheric climate forcing agents. These include carbon dioxide 
(CO<INF>2</INF>) and methane (CH<INF>4</INF>), compounds that deplete 
stratospheric ozone, and related gases. They also include air pollution 
from Eurasia known as Arctic Haze, black carbon measurements, and 
surface radiation, to name only a few of the more than 200 measurements 
conducted at this facility. The observatory was established in 1973 and 
it has operated continuously to date. It is the world's longest 
continuously operating atmospheric climate observatory in the Arctic. 
It is expected to be in operation for the next century, monitoring and 
documenting the causes of climate change in the Arctic.
    Two NOAA polar orbiting satellite downlink antennae that relay 
images of Arctic sea ice and clouds are supported at this site in 
Barrow, as well as the northern most NOAA Climate Reference Network 
station that accurately documents temperature and moisture changes in 
the region. The NOAA Barrow Observatory also hosts the Department of 
Energy's North Slope of Alaska Atmospheric Radiation Measurement 
facility, and supports the adjacent United States Geological Survey 
Barrow Geomagnetic Observatory. Together, these facilities are the 
largest collection of environmental scientific instrumentation in the 
entire Arctic and represent an investment in excess of $100 million.
    To reduce uncertainties in NOAA information and services, NOAA is 
establishing the basis for an ecosystem-level Arctic Change Detection 
System within current resources. The goal is to monitor at minimum four 
key areas: ecosystem responses to sea ice loss, necessary additional 
climate observations over the Arctic, basic water level information, 
and accelerated methane release. Such a system includes a marine 
Distributed Biological Observatory for consistent monitoring of 
biophysical responses and ecosystem change in the U.S. Arctic as sea 
ice retreats. The Distributed Biological Observatory was the central 
recommendation from a NOAA-sponsored stakeholder workshop in May 2009 
on the biological impacts of loss of sea ice. Efforts such as the 
Russian-American Long-term Census of the Arctic can also improve the 
exchange of information about near and far field changes in the Arctic. 
In addition--as evidenced by the science community's surprise at the 
rate and magnitude of loss of summer Arctic sea ice from 2007 through 
2009--new in situ, drifting, airborne, and satellite observing 
technologies are needed to fill gaps in meteorological and 
oceanographic fields for temperature, heat, methane feedbacks and other 
biophysical parameters. Accurate geodetic elevations and water-level 
information to update obsolete historical datasets will help coastal 
communities adapt and increase resilience to hazards as ice-diminished 
coastlines allow a completely new wave and storm surge regime to 
develop as the seasons change.
Improve Weather and Water Forecasts and Warnings
    Major stakeholders and partners, including the U.S. Coast Guard and 
the State of Alaska Division of Homeland Security and Emergency 
Management, require more useful weather and water information for 
planning and decisionmaking to protect lives, property, and manage the 
region's many resources. Arctic populations rely heavily on aviation 
and marine weather for safe transportation and access to goods and 
services.
    A 2006 study by the National Institute of Occupational Safety and 
Health reported that the accident rate for commercial pilots in Alaska 
was five times higher than the national average. Additionally, Alaska's 
$4 billion fishing industry is one of the most dangerous occupations in 
the Nation, primarily due to the harsh weather conditions in the 
region.
    Improvements in weather and water information will lead to 
increased safety and efficiency in these important sectors. 
Environmental observations and studies supporting weather and ice 
forecasts are highly limited in both geographic scope and frequency. 
For example, there is inadequate real-time meteorological data in U.S. 
Arctic waters to support accurate forecasting of ocean storms which 
have serious potential to threaten marine transportation, offshore oil 
and gas operations, and the Arctic coastal communities. The 2009 
failure of NASA's QuikSCAT satellite scatterometer and the 2008 
expiration of an agreement between NOAA, NASA and the Canadian Space 
Agency for valuable, cost-free synthetic aperture radar (SAR) data from 
the RADARSAT1 mission continue to hinder Arctic weather and sea ice 
services capability. NOAA is attempting to mitigate these impacts by 
procuring data from foreign satellite operators through a partnership 
with the University of Alaska's Alaska Satellite Center. This 
information is critical in real-time forecasting and warning of events 
such as rapid sea ice formation, river ice jams, and storms carrying 
hurricane force winds that are major hazards for life, property and 
economic activities in the Arctic.
    NOAA has also operated the Fairbanks Command and Data Acquisition 
station in Fairbanks, Alaska since 1965 which manages the 
aforementioned Barrow satellite downlink antennae. From that station, 
NOAA accesses data from its Polar-orbiting Operational Environmental 
Satellites (POES), various NASA research satellites, and a number 
foreign environmental satellites which provide space-based data that 
are used by NOAA to develop its forecasts, warnings, and information 
for surface, marine, and aviation weather interests, with emphasis, 
when possible, on high-impact events such as extra tropical storms and 
polar lows, storm surge and other coastal hazards such as tsunamis, 
heavy precipitation, floods, droughts, volcanic ash, and space weather. 
Services are delivered through a number of media outlets from Internet 
to high frequency radio broadcasts. NOAA is working to improve Arctic 
marine weather, sea ice, and storm surge forecast services by 
addressing greater needs for observations, modeling, and forecasts 
while incorporating new techniques for ensuring this information leads 
to the best possible decisions and associated response. Improved 
forecast services will better ensure the safety and security of marine 
transportation, oil and gas exploration, and tourism activities, and 
protect northern and western Alaska coastal communities from storm 
surge, inundation, and erosion hazards. Arctic weather also plays an 
important role in global weather; understanding this role is essential 
to improving global forecasts. NOAA understands that regular forecasts 
and support for the Arctic region will contribute to the protection of 
life and property and the enhancement of the economy, and will help to 
fulfill NOAA's obligations in cooperative agreements with international 
partners, and treaties such as the International Convention for the 
Safety of Life at Sea. For example, from the Fairbanks station, NOAA 
receives alerts from locator beacons that have been activated by 
persons in distress in the Alaska wilderness, or from mariners or 
aviators in distress. The signals from these beacons are transmitted 
via NOAA satellites which provide support under the auspices of the 
international Search and Rescue Satellite-Aided Tracking (SARSAT) 
program.
Enhance International and National Partnerships
    No single region better exemplifies the complex interdependence of 
communities and changing ecosystem conditions than the Arctic. The 
breadth and complexity of the cultural, societal, economic, and 
environmental impacts requires a concerted, systematic and rapid effort 
with partners from international to local levels.
    NOAA currently cooperates with other Arctic nations directly, as 
well as through international institutions and organizations, to 
support work in areas such as weather, climate, aviation, and marine 
observations, forecasts, and services; ecosystem management; marine 
transportation (e.g., hydrography and nautical charting); fisheries; 
and ice monitoring. These relationships allow us to cooperate on sea 
ice forecasts, as well as efforts to understand and predict changes in 
the Earth's environment by observing the Arctic atmosphere and 
cryosphere from manned observatories in places such as Summit, 
Greenland and Tiksi, Russia. NOAA is also an active participant in 
numerous international organizations such as the World Meteorological 
Organization, the International Maritime Organization, the 
International Hydrographic Organization, and the Arctic Council. NOAA 
serves in leadership roles in two Arctic Council working groups 
(Protection of the Arctic Marine Environment and Arctic Monitoring and 
Assessment Program), while providing expertise to others. Current 
Arctic Council work includes assessing the effects of pollutants in the 
Arctic, reviewing the comprehensiveness and efficacy of existing 
governance mechanisms for the Arctic marine environment, and 
understanding the status of biodiversity in Arctic ecosystems.
    Modeling climate change at the regional and global levels is an 
enormous task, best accomplished by sharing data at multiple levels--
with universities and researchers, with Federal and State agencies, 
with other Arctic countries, and with non-Arctic countries possessing 
satellite and observation capabilities in the Arctic. NOAA is working 
to continue and expand these relationships through partnerships and 
formal bilateral arrangements, recently highlighted by the signing of 
the comprehensive climate change agreement between the Department of 
Commerce and Department of the Interior (DOI). Understanding and 
predicting how ice cover and consistency will change in the Arctic will 
necessitate cooperation. NOAA seeks to increase both its interagency 
and international partnerships to improve the accuracy, timeliness, and 
coverage of its sea ice forecasts--ensuring seamless transitions across 
jurisdictional boundaries and enhancing safe navigation.
    These changes in climate and sea ice are also driving changes in 
marine ecosystems (including species abundance and composition) in ways 
not yet fully understood. Due to the interconnected nature of Arctic 
ecosystems, the U.S. will need to continue to improve collaboration and 
engagement with other Arctic nations through international mechanisms, 
such as the Arctic Council and our bilateral relationships, to better 
understand, observe, research, and manage Arctic resources. NOAA will 
provide leadership and resources to support Arctic governance and 
science organizations. Specifically, NOAA will continue to support the 
Arctic Council and its working groups, which monitor and assess 
biodiversity, climate, and the health of humans and ecosystems, and 
contribute to international approaches to ecosystem and protected area 
management, as well as management of shipping.
    Continued coordination across Federal entities, such as that 
provided by the Interagency Arctic Research Policy Committee, will be 
essential to implement overarching U.S. Arctic Policy goals, 
particularly those identified by the U.S. Arctic Policy (NSPD 66/HSPD 
25) and the Interagency Ocean Policy Task Force's Final 
Recommendations. NOAA continues to develop and advance partnerships 
with our colleagues from the National Science Foundation (NSF), DOI, 
and the U.S. Arctic Research Commission, along with a multitude of 
other Federal agencies that are focused on Arctic issues. A good 
example is NOAA's regular collaboration with the Bureau of Ocean Energy 
Management, Regulation, and Enforcement (BOEMRE, formerly the Minerals 
Management Service) on a variety of biological assessments. BOEMRE is 
currently funding roughly $29M in NOAA fisheries and marine mammal 
studies, along with other cooperative environmental impact, 
meteorological and oceanographic Arctic study projects in the Chukchi 
and Beaufort Seas.
    In the State of Alaska, NOAA partners with public and private 
sectors at the Federal, state, and local scales. The agency is a member 
of the Alaska Climate Change Sub-Cabinet's Advisory and Technical 
Working Groups, and also plays an active role in the Alaska Climate 
Change Executive Roundtable to facilitate cooperation among agencies 
seeking solutions to Alaska's climate change challenges. Through the 
roundtable, NOAA has acquired sites for observing stations; benefited 
from sister agency capabilities to implement Administration events such 
as the public meetings in Anchorage associated with the Ocean Policy 
Task Force; and worked on defining clear synergistic roles for new 
tools and services such as the proposed NOAA Climate Service and DOI's 
Climate Science Center and their Landscape Conservation Cooperatives 
NOAA and BOEMRE also partner closely to engage Alaska Natives regarding 
oil and gas impacts to subsistence activities through the annual ``Open 
Waters'' meeting. NOAA has had long standing co-management agreements 
with several Alaska Native Organizations regarding research and 
management of marine mammals in Alaska (excluding walrus, polar bears 
and sea otters which are managed by DOI). NOAA believes co-management 
should serve as the foundation for the management of subsistence takes 
of marine mammals in Alaska. In addition, NOAA participates in a 
Cooperative Agreement with the Alaska Eskimo Whaling Commission (AEWC) 
for the management of its subsistence hunt and fully cooperates with 
the AEWC on related domestic issues and through U.S. engagement at the 
International Whaling Commission. NOAA is also on the oversight 
committee of the North Slope Science Initiative and is contributing to 
the development (and eventual implementation) of the Arctic and the DOI 
Western Alaska Landscape Conservation Cooperatives. Finally, NOAA has a 
close working relationship with faculty and staff at the University of 
Alaska, through partnerships such as the Alaska Regional Integrated 
Science and Assessments group and Alaska Sea Grant which conduct 
research on the impacts of climate change and ocean acidification on 
commercial and subsistence fisheries in the Bering and Chukchi Seas. 
Continuing to build and sustain strong partnerships with the State of 
Alaska and other local, regional and international stakeholders will be 
critical to achieving success in the Arctic.
Improve Stewardship and Management of Ocean and Coastal Resources in 
        the Arctic
    As the Arctic Ocean becomes more accessible with the retreat of sea 
ice in summer months, cascading consequences must be anticipated. 
Biophysical and chemical changes in the ocean, combined with increasing 
human uses will impact the Bering, Chukchi, and Beaufort Seas. 
Currently, commercial harvest of groundfish, shellfish, salmon and 
other resources, primarily in the Bering Sea, constitute almost 50 
percent of marine fish landings in the United States. Further, these 
same resources, plus various species of marine mammals, seabirds, and 
other marine life are critical to the maintenance of the subsistence 
lifestyle of over 40,000 indigenous people who inhabit small towns and 
villages on Alaska's Arctic coastline.
    NOAA currently conducts population assessments and ecological 
process studies to meet its living marine resource management mandates. 
An important research gap is that existing ecosystem models are unable 
to provide reliable information on how loss of sea ice, increased ocean 
acidity, and increasing ocean temperatures will specifically impact key 
fish and mammal species. NOAA is leveraging existing resources to 
expand limited aspects of its current Arctic ecosystem research program 
and the regional Alaska Ocean Observing System, as well as implement 
better data collection, analyses, and models to provide reliable 
predictions of the changes coming to marine ecosystems in the U.S. 
Arctic. It is critical to both the U.S. economy and the coastal 
inhabitants of the U.S. Arctic that NOAA, in cooperation with Federal, 
state, and local partners and stakeholders, improve its capabilities to 
understand and predict the full spectrum of changes associated with 
climate change in the Arctic, with the intended outcome of improving 
the stewardship and management of Arctic marine resources.
    Additional surveys are needed to assess the impact of climate 
change, loss of sea ice, and ocean acidification on living marine 
resources in the northern Bering, Chukchi, and Beaufort Seas. One key 
management question is how productivity and species composition will 
change with the loss of sea ice, increased acidity, and sea surface 
temperature warming. Very few surveys have been conducted to date to 
assess the status of living marine resources in the northern Bering, 
Chukchi, and Beaufort Seas because of limited access to survey vessels 
and aircraft during the ice free summer months. NOAA is exploring ways 
to increase its Arctic survey capability. For example, it is 
considering supplementing the NOAA fleet that performs survey work with 
contracting vessels.
    NOAA is working to expand two existing programs, while continuing 
on-going assessment programs on marine mammals, fish, and shellfish: 
(1) the Bering Aleutian Salmon International Survey and the Russian-
American Long-term Census of the Arctic, which are cooperative 
international research programs in the northern Bering and Chukchi 
Seas; and (2) NOAA's ocean acidification program. The former will 
provide critical information on the biodiversity of this region and a 
baseline for assessing how biodiversity will respond to climate change 
and loss of sea ice. The latter activity will result in greater 
attention given to the impact of more corrosive waters on the ecology 
and life history of key Arctic species such as king crab. It is NOAA's 
intent to continue annual trawl surveys for groundfish and crab in the 
Bering Sea and biennial acoustic surveys. These surveys form the base 
for sound management of groundfish and crab resources in the Bering 
Sea.
Advancing Resilient and Healthy Arctic Communities and Economies
    The Arctic's condition can be gauged by the health of the people 
living and working in this unique environment, and by the impact of 
increased economic activity on the region. Indigenous people have long 
depended upon the unique characteristics of the Arctic for food, 
livelihoods, cultural heritage, and protection. However, climate change 
in the Arctic is altering the foundations of their communities and 
challenging indigenous ways of life. As the ice barriers that protect 
Arctic coastal communities diminish, the State of Alaska and its people 
must make critical decisions based on threats from stronger storms, 
increasing erosion, thawing permafrost, changing animal migration 
patterns, and sea level changes. At the same time, the loss of sea ice 
creates opportunities for commercial enterprises, creating tension 
between traditional uses and new opportunities. Oil companies are 
investing in exploration, private interests are anticipating an open 
Arctic trade route, and pressure is increasing on our defense and 
security assets to maintain a presence in the region in a ``response-
ready state'' because of the increased risks.
    In light of these growing commercial, security and coastal 
community pressures, sustainable management of the region, which until 
now has been relatively inaccessible, will require Federal, state, and 
local governments to work together to advance improvements in:

  <bullet> geospatial infrastructure for accurate positioning and 
        elevations;

  <bullet> tide, current and water level observations and prediction 
        coverage;

  <bullet> shoreline and hydrographic data;

  <bullet> nautical charts;

  <bullet> research on how oil behaves in ice;

  <bullet> spill response capability and understanding of current 
        environmental conditions for damage assessment and restoration;

  <bullet> weather and ice forecast coverage; and,

  <bullet> science-based recommendations for coastal community climate 
        change adaptation strategies.

    NOAA has a variety of mandates relating to resilient communities 
and economies, from hydrographic surveys and nautical charting to 
coastal zone management and oil spill response. It recognizes that it 
can make the highest positive impact to Arctic communities and 
sustainable economic growth by providing an accurate geospatial 
framework and products and services for safe navigation and security, 
oil spill response readiness, and climate change. Putting good 
information into the hands of mariners is essential for safe navigation 
and environmental protection, and coastal communities and scientists 
must have the same foundational support for good operational and 
research decisions.
    NOAA is working with partners like the U.S. Coast Guard and local 
vessel pilots to prioritize surveys of likely shipping lanes in the 
North Bering and Chukchi Seas to help address the Bering Strait 
chokepoint, in particular, and more broadly to reduce the risk of 
accident and environmental impact in Arctic waters. In FY 2010, NOAA is 
conducting hydrographic surveys in the Bering Strait, a key area of 
interest to the U.S. Navy, with some additional surveys planned for FY 
2011. Through its Gravity for the Redefinition of the American Vertical 
Datum (GRAV-D) initiative, NOAA is leveraging resources in FY 2010 and 
FY 2011 to dramatically improve elevation data in the U.S. With current 
elevation measurements off by as much as two meters, Alaska is the 
foremost priority for GRAV-D, and gravity data collection flights over 
Alaska in the summers of 2010 and 2011 will improve that accuracy to 
two centimeters. This effort will help coastal communities with 
infrastructure-hardening challenges and decisions on erosion controls 
and flood protections. In addition, NOAA has recently completed a tide 
gauge demonstration project in Barrow in order to develop the 
technology and approaches necessary for long-term water level 
measurements under harsh Arctic conditions. NOAA's hydrographic 
services provide valuable information to ensure conservation, 
management, and use are based on sound science to support U.S. economic 
growth, and resilient and viable ecosystems and communities.
    To improve environmental preparedness, response, and recovery 
efforts, NOAA is working to expand the NOAA Environmental Response 
Management Application (ERMA) program to benefit Arctic stakeholders, 
including coastal communities, Alaska Native villages, the State of 
Alaska, industry, as well as NOAA and other Federal agencies. NOAA will 
develop an ERMA website for two to three areas of high priority to 
prepare for Arctic oil spill risks, and will likely include an area of 
concern in the Chukchi and Beaufort Seas. ERMA is a web-based 
Geographic Information System tool designed to assist both emergency 
responders and environmental resource managers who deal with incidents 
that may adversely impact the environment. The application can assist 
in response planning and is accessible to both the command post and to 
assets in the field during an actual response incident, such as an oil 
spill or hurricane. The data within ERMA also assist in resource 
management decisions regarding hazardous waste site evaluations and 
restoration planning. ERMA also includes human use and human dimension 
data components and, for the Arctic, would include sea-ice conditions. 
Federal, State and Tribal governments will be able to use this 
information and the ERMA interface not only to address oil spill 
planning and response, but also to assess sea-ice and shoreline erosion 
information.
    NOAA is also responsible for administering the Coastal Zone 
Management Act (CZMA), and the State of Alaska has a NOAA-approved CZMA 
program. The State's CZMA program includes local districts and Alaska 
Native tribal governments. NOAA works with the State, districts and 
Alaska Natives and provides annual grants, management, and technical 
assistance to help the State build its capacity to address pressures on 
the State's coastal resources and communities, including planning for 
climate-related changes and impacts.
    In conclusion, NOAA is bringing its diverse capabilities to bear on 
the cultural, environmental, economic, and national security issues 
emerging as a result of changes in the Arctic. The breadth and 
complexity of these impacts require a concerted, systematic and rapid 
effort with partners from international to local levels. NOAA's 
scientific capabilities are being deployed to increase understanding of 
climate and other key environmental trends, to predict the ecosystem 
response to those trends, and to offer the technical expertise needed 
to develop policy options and management strategies for mitigation and 
adaptation to the environmental challenges in the Arctic region. NOAA's 
service capabilities are supporting safety and security needs for 
fishing, marine mammal protection, marine and other modes of 
transportation, energy, infrastructure, and mineral exploration in the 
unique Arctic environment. The choices we make today can have pivotal 
impacts on the future state of the Arctic. There is a great deal of 
work to be done, and NOAA, in collaboration with our partners, is 
committed to strengthening Arctic science and stewardship, and 
providing the information, products, and services needed by our Arctic 
stakeholders. Key to enhancing these efforts will be the coordinated 
implementation of the Ocean Policy Task Force's Final Recommendations. 
In addition to the Arctic as an area of special emphasis, there are 
other key priorities that provide for focused and coordinated actions 
that will improve our stewardship of the Arctic Region.
    NOAA is currently in the process of validating a comprehensive NOAA 
Arctic Vision and Strategy with our stakeholders that aligns our 
capabilities in support of the efforts of our international, Federal, 
state and local partners, and within the broader context of our 
Nation's Arctic policies and research goals. Our next step is to engage 
our partners and stakeholders, and transform that strategy into actions 
that will support healthy, productive, and resilient Arctic communities 
and ecosystems.
    Thank you again, Senators Begich and Stabenow, for the opportunity 
to talk about NOAA's role in the Arctic. We appreciate your leadership 
and the time and attention the Committee is devoting to this important 
issue, and look forward to working with you further.

    Senator Begich. Thank you very much. Richard Glenn, and 
then I'm going to go this way.

          STATEMENT OF RICHARD GLENN, VICE PRESIDENT, 
               ARCTIC SLOPE REGIONAL CORPORATION

    Mr. Glenn. OK. Thank you.
    Senator Begich. I should have said that warning ahead of 
time so everyone knew where they were, so you weren't wondering 
who's next.
    Mr. Glenn. Thank you for coming, Committee Members and 
Senators.
    It's an honor to be here presenting to you on this panel 
and I'm struck by the comments of the other panel members 
already. I think that you are hearing the right words from the 
right people and so I will not retrace the steps or the words 
of Edward or the Admiral or Laura. Instead, I'll kind of edit 
my comments on the fly, but you have a written version for you.
    Senator Begich. Yes, we'll include all the written 
testimony in the record.
    Mr. Glenn. Thank you. So as Edward mentioned, this is 
ground zero for climate change and if it's ground zero, the 
residents of our coastal communities in the Arctic are at the 
tip of the spear, to use another analogy. The traditional 
knowledge that he referenced is a storehouse of information 
that goes back over thousands of years and if you look at the 
change observed today against the backdrop of traditional 
knowledge, you bring a greater depth and understanding and so 
while others might like to point to our people as victims of 
climate change, I think we're adept as observers of this change 
and adjusting to it because in many ways our culture is built 
on change and there are many examples, from whaling camps 
perched on the ice to coastlines suffering from erosion in our 
villages where, if you're too complacent and you think the 
status quo will remain that way, it's just the wrong decision. 
So we adjust to change.
    As you know, I'm the President or Vice President of Lands 
and Natural Resources for Arctic Slope Regional Corporation. 
I'm also the President of the Board of Directors of a local 
nonprofit organization called the Barrow Arctic Science 
consortium and this consortium's mission is to put visiting 
researchers together with experts in our community and for the 
last 15 or 20 years the theme of most of the research has been 
global climate change.
    As has been spoken already, the Arctic Ocean is changing 
and the changes have been described accurately but it begs some 
questions. There is less ice cover, less multiyear sea ice 
cover especially, but is the corresponding increase in seasonal 
sea ice good or bad for marine mammals and ice-dependent 
species? Is there a measurable change in the current systems in 
the Arctic Ocean, and what about this introduction of new 
species? What is coming in here, and how do we understand it 
better?
    In the fall time season when the ice cover is at its most 
drastic retreat, there's more fetch. That means we're more 
prone to waves and wave-induced erosion, but in this new era of 
reduced ice cover, is it really stormier? I mean, are we 
suffering from increased wave erosion because it's stormier or 
not?
    Fundamental questions like these remain unanswered and 
there's a place mat, I believe at your table, like there is at 
mine, that talks about a coastal observatory based in the 
Arctic, based at Barrow. I believe the Arctic Ocean is 
screaming for greater understanding and without understanding 
it, how can we understand the changes?
    If, instead, you observe something for the first time, what 
might appear to be a change could instead be something that was 
yet undiscovered. So this cable marine observatory will give us 
greater understanding of the Arctic Ocean system.
    This is not a brand-new idea. This kind of observatory 
exists in the Monterrey Bay Canyon and off the Oregon coastline 
near Astoria, but the Arctic Ocean system itself lacks such a 
tool.
    We have cable ocean-observing systems installed by the 
United States, by Canada, by Russia, and others, but they're 
just mere data points and something like this cable coastal 
observatory would give you an integrated approach with many, 
many useful purposes. Our community, the industry, community 
members, our hunters, our whalers are all in support of this 
kind of observatory.
    It can document the migration of marine species. It can 
answer fundamental questions related to ocean, chemistry, and 
currents. It can also observe and measure the effects of this 
increase in vessel traffic that has been referenced and the 
effects of seismic exploration, for example, on the ocean 
environment and on marine species.
    Barrow has what has been called the best-characterized air 
column in the world, thanks to the NOAA facilities that are 
here, the Climate Modeling and Diagnostics Lab, which is the 
old name for these three or four buildings around the world 
that measures the trace gases in the atmosphere, and we're the 
first atmospheric evidence for increases in carbon dioxide and 
other greenhouse gases.
    There's also a Department of Energy facility whose mission 
is to look at clouds and wind profiles and incoming solar 
radiation and discuss how that either warms or cools the 
environment.
    We have a National Weather Service station here and if you 
turn your back to the ocean and look inland, you'll see 
hundreds of research plots and data sites that are already 
wired. The Arctic is wired for research, everywhere but in the 
ocean, and so it's especially appropriate now in this time of 
change that we put increased monitoring on our ocean system.
    My background is in natural sciences. I'm a geologist. My 
mother was born and raised here and so this pride that our 
people put in the knowledge of the natural environment and its 
changes is a great ad mixture for Western science style 
education and it's this crossroads of traditional knowledge and 
Western science that's so important here.
    And if you look at the land for a moment, you look at a 
permafrost environment, you would see that our existence on the 
surface is only part of the equation. Right beneath our feet, 
there's a thousand feet of permafrost. If you go to Prudhoe 
Bay, there's 2,000 feet of permafrost, not because it's any 
colder there, it's because the ground over there is more like 
Styrofoam and the ground over here is more like aluminum foil. 
It's a thermal conductivity question.
    But with such a thickness of permafrost, that's a time 
investment of cold temperature. You know that it's not going 
anywhere fast, but what is changing is that surface portion of 
the permafrost that melts and freezes every year and the 
permafrost itself is not an ironclad safe. It's a porous 
system. Inside the peat that lies in the active layer, the 
shallow permafrost and beneath the permafrost are hydrocarbons 
and all kinds of sources of carbon. Peat lands in bogs 
everywhere like this but it's especially more enriched here 
because the permafrost for a time traps whatever it's freezing 
and if you look just under the permafrost, you'll see these 
things called methane hydrates which, for the purposes of too 
long of a lecture, I'd love to talk about with you off record, 
but the pressure and temperature conditions under the 
permafrost and in the floor of our ocean are ripe for this ice 
crystal that traps methane. It is the premier hydrocarbon 
source but it also is a huge environmental issue.
    It was the methane seeps and the oil seeps percolating up 
through this natural system that caused President Warren 
Harding in 1923 to draw basically a 150-mile circle around here 
and call it the Naval Petroleum Reserve Number 4 and it's now 
called the NPRA and was host to a lot of things, including oil 
and gas exploration and knowledge and research about the 
permafrost environment.
    If you look just south of this town you'll see the Barrow 
Gas Fields and that is a place discovered by the Navy, shallow 
natural gas accumulations that may be the only gas fields in 
the world that are producing gas from potentially a methane 
hydrate source. So even though it was developed in the 1940s 
and producing through today, it may be part of this cutting 
edge of research related to methane hydrates.
    There's change in the ocean, there's change on the land, 
but our communities are changing, too, and this is an unusual 
topic, I think, and it's not one that's talked about often, but 
we live in villages. Our culture is rooted in the rural 
communities, but villages are changing and villages in the 
Arctic are really gritty and hard-scrabble places and that 
means that things that the rest of the world takes for granted 
come to us at immense cost, even things like reliable power, 
sanitation, running water, clean and safe places to live. Those 
things come here only at great cost.
    In our region we're dependent upon a clean and healthy 
environment for our culture and for our food. In addition, 
we're dependent upon a resource industry to provide these 
amenities that the rest of the world takes for granted at such 
great cost. It might seem that we are conflicted but I believe 
we, and like the rest of the world, should be, where 
appropriately, conflicted, and so we live in this balance, this 
balance of resource development and respect and use of our 
natural environment.
    The Arctic is changing but some things stay the same and 
one of the things that stays the same is this image of the 
Arctic as an idyllic frontier that's far away, this pristine 
place where, if we could just put a jar over it, everything 
would be fine. We know it's not that way, especially those of 
us who live here, and if it's not that way, try to look at it 
from our side. The Arctic is a close place. The Arctic is our 
home and think of the lower latitudes as the distant and remote 
places because it's only a thousand miles from here to the 
North Pole and if you just go dot to dot along the communities, 
along the coast, through the Canadian Archipelago, we speak the 
same language, we have the same culture. The same issues affect 
us as affect our neighbors in the Canadian and Russian Arctic, 
as far away as Greenland.
    In fact, we have friends, relatives, and family that 
continue in an unbroken stream all along there and have for 
thousands of years. So the image of this idyllic Arctic is a 
mixed blessing. Some scientists want to come here and research 
the frontier but the frontier is our home. We're thankful for 
the science that it brings but we are not comfortable with the 
stereotypes that exist related to the Arctic.
    Finally, as committee members know, the Arctic policy is 
changing and here I would like to leave my final comment and a 
request. This is a field hearing in Barrow and we are one 
community and you're hearing great testimony from the right 
people and I applaud them and support their words, but there 
are many other villages in the Arctic.
    As you know, Senator Begich, we have more than 200 Alaskan 
villages. I would say we probably have about a hundred, maybe 
75 that you would classify as Arctic villages.
    I would ask this committee and you Senators individually 
that when you consider changes in Arctic policy that you seek 
out input from all Arctic communities because, taken one at a 
time, we are just villages, local expertise and local 
knowledge, but taken together, we are the Arctic.
    Thank you. Thank you for your time and thank you for your 
attention.
    [The prepared statement of Mr. Glenn follows:]

         Prepared Statement of Richard Glenn, Vice President, 
                   Arctic Slope Regional Corporation
    Thank you to members of the Senate Committee on Commerce, Science, 
and Transportation for coming to Barrow, Alaska--the heart of Alaska's 
Arctic--to address this important theme. As you are aware, you are in 
the land of the Inupiat. Our villages in this region are home to 
Alaskan Native culture are storehouses of traditional knowledge; and 
they are on the ``tip of the spear'' when it comes to witnessing our 
changing Arctic. Traditional Knowledge takes today's witnessed change 
and sets it against a backdrop of centuries of experience. The 
knowledge does not reside in books, but is passed generation to 
generation and resides in our people.
    Our understanding of the Arctic is changing. Startling is it may 
seem to others, I feel that the Inupiat people are adept in this era of 
change because in many ways our culture is built up change and 
adaptation. There are many examples, from whaling camps perched on the 
sea ice, to villages on an eroding shoreline, where it never pays to 
predict that things will stay the same.
    First, it is plain for us to see that the Arctic Ocean is changing. 
Freeze-up begins later and breakup begins earlier--measurably so. 
Hence, the ocean ice cover is relatively thinner than it was in years 
past. The reduced ocean ice cover means many things, and begs many 
questions. Here are just two:

  <bullet> There is less multi-year sea ice, but is the corresponding 
        increase in seasonal sea ice good or bad for ice-dependent 
        species and other marine mammals? Is there a measurable change 
        in the current systems of the Arctic Ocean or in the 
        introduction of new species?

  <bullet> There is more fetch for late fall season storm waves, but 
        has it gotten stormier than in the times of greater ice cover?

    I believe overall, that the Arctic Ocean system screams for greater 
understanding. Without understanding it how can we understand its 
changes? What may appear to be a ``change'' might instead be something 
that we are seeing for the first time.
    A cabled marine observatory will give us greater understanding of 
the Arctic Ocean system. There are materials here which describe the 
cabled marine observatory concept. They exist elsewhere already (there 
is one near the Monterey Canyon and another near Astoria on the Oregon 
coast). The Arctic Ocean lacks such a tool and it can be immensely 
important in measuring fundamental parameters like sea chemistry and 
ocean currents and answering questions like those above. In addition, 
the observatory can document the migration of marine species, observe 
and measure the effects of increased vessel traffic, seismic 
exploration and other influences that mankind has on the Arctic Ocean 
environment.
    Barrow has what is called the best characterized air column in the 
world. The NOAA GMCC lab is one of three in the world that are 
responsible for measuring the trace gases in our atmosphere. We have a 
newly renovated National Weather Service station. The U.S. Dept of 
Energy has established the Atmospheric Radiation Monitoring site here; 
it studies the effects of clouds, albedo, wind profiles on incoming 
solar radiation. Barrow is also host to hundred of research plots on 
the tundra extending inland in every direction up to a hundred miles 
studying everything from plant succession to carbon exchange. This part 
of the Arctic is wired for research. What is lacking is a similar 
infrastructure for studying the ocean.
    My background is in the natural sciences, and I have made a 
personal focus of studying permafrost-related geology and sea ice 
processes. Combining traditional knowledge with academic study and what 
is called Western Science is an incredibly rewarding experience. Here 
where the permafrost is up to a thousand feet thick and where the ocean 
has a frozen cover for most of the year, we are in the heart of the 
U.S. Arctic. With permafrost a thousand feet thick (and up to two 
thousand feet thick at Prudhoe Bay), we understand that the bulk of it 
is not going anywhere fast. But the warming of the climate is changing 
that top few feet that freezes and thaws every year, and it may be 
affecting things at greater depth. Relationships between permafrost, 
carbon and carbon dioxide, methane, and the ocean seabed and tundra 
subsurface are important to us, and important to the world.
    Like peatlands and bogs everywhere, the tundra landscape is rich 
with carbon. The tundra environment is especially enriched because the 
permafrost allows its contents to be trapped by being frozen. And 
within and underneath our permafrost (and on the bottom of the Arctic 
Ocean and oceans around the world) are trapped the ice-methane 
compounds called methane hydrates-which are the premier hydrocarbon 
sources, as well as other conventional hydrocarbons. Naturally-
occurring methane and oil seeps were the reason President Warren 
Harding created the 23-million acre Naval Petroleum Reserve No. 4 here 
in 1923. The shallow natural gas fields of Barrow, discovered by the 
Navy in the 1940s are excellent windows into the study of permafrost 
and methane hydrates. Indeed we may be the only community in the world 
that relies upon natural gas that is recharged by a methane-hydrate 
source.
    Change in the Arctic is not limited to the physical environment, of 
course. Our communities are changing. Alaska is home to more than two 
hundred villages. The term ``village'' keeps us at a loss when we push 
for quality of life improvements. When the outside world thinks of 
``villages'' they do not think of real-world quality of life 
improvements. Villages in the Arctic have always been and will always 
be gritty, hard scrabble places. As our villages grow, so does our need 
for real world improvements. Basic items taken for granted elsewhere 
such as running water, sanitation, reliable power, and access to the 
outside world are achieved here at great cost.
    In our region, where our villages are dependent upon the land and 
ocean for food and the roots of our culture, we are also dependent upon 
the natural resource development industry that has given us our only 
economy. It has allowed us to build schools, health clinics, airports, 
and to install running water and safe sanitation systems. So it may 
seem that we are conflicted when it comes to issues like oil and gas 
development. But we feel we are appropriately conflicted.
    The Arctic is changing. But some things stay the same. The idea of 
the Arctic as a frontier is indelible in Western culture. This is a 
mixed blessing. What needs to stay the same is the fascination and need 
for understanding of the Arctic system. The downside of the frontier 
mystique is that we are perceived as a far-away place. I find more 
value in keeping an ``Arctic-centric'' mindset and considering the low 
latitudes as the far-away places. The interest in our region mixed with 
our traditional knowledge has produced sustained, world-class research 
and a mutually beneficial relationship between visiting researchers and 
those who have been observing the Arctic and all of its changes for 
thousands of years. In many ways all of that began here. It continues 
here and it should be recognized and identified as a national priority.
    Arctic Policy is changing--as it should. Here I would like to leave 
my final comment and request. Today's field hearing is in Barrow. We 
are one village. There are many other villages in the Arctic. I 
respectfully request that when this Committee, and you individually, 
consider changes to Arctic Policy, that you seek out input from all 
Arctic communities. Singularly, we are a village; together, we are the 
Arctic.

    Senator Begich. Thank you, Richard. Let me go to Mary Pete 
now.

           STATEMENT OF MARY C. PETE, COMMISSIONER, 
                U.S. ARCTIC RESEARCH COMMISSION

    Ms. Pete. My name is Mary Pete, and I thank us for being 
here.
    Senator Begich, Senator Stabenow, and Members of the Senate 
Commerce Committee, and the City and Tribe of Barrow, thank you 
for the opportunity to testify on behalf of the U.S. Arctic 
Research Commission.
    I was appointed by President Obama to the Commission in 
June of this year to represent indigenous perspectives and 
focus on anthropology, subsistence, and education. 
Additionally, I serve as the Director of the University of 
Alaska Fairbanks Kuskokwim Campus in Bethel, Alaska, and 
previously served as the Director of the Subsistence Division 
for the Alaska Department of Fish and Game overseeing research 
and advocating for the protection of subsistence hunting and 
fishing rights.
    Again, thank you for this opportunity to share how climate 
change is affecting subsistence in the Arctic. Inner 
temperatures have warmed the Arctic at twice the rate of the 
rest of the world, causing exaggerated changes in thawing the 
permafrost and reducing sea ice, increasing weather 
variability, such as precipitation, storm surges, flooding, 
erosion, and increasing growing seasons.
    The effects on subsistence are many. The northward range of 
flora and fauna, you've heard of, and introduction of non-
native species, decreases in changes in traditional food 
sources, disappearance of permafrost food shelters as well as 
the disappearance of ice platforms during marine mammal hunting 
seasons and erosion threatening village land mass.
    The cultural significance of subsistence to Alaska Native 
peoples cannot be overstated. It defines us. Any impacts to our 
subsistence way of life is far-reaching and deep. Cultural 
impacts of separating Alaska Native peoples from our 
traditions, for example, by increased rural residents 
emigration to regional hubs and urban centers due to increasing 
energy costs and increased costs and effort to conduct 
subsistence activities affects transference of subsistence 
knowledge across generations, changes our diets, impacting our 
health.
    I want to remind all of us of the Federal Government's 
fiduciary responsibility to provide for the health, safety, and 
cultural preservation of Alaska Natives and American Indians.
    Research as a means of establishing a baseline to protect 
this trust responsibility and honoring self-determination of 
our tribes is something I want to emphasize.
    It is important that Federal agencies incorporate 
traditional ecological knowledge in order to better understand 
baselines and how the Arctic is changing as well as to validate 
traditional ways of knowing. Methods for accomplishing this are 
to institute policies to encourage the adoption of traditional 
knowledge in managing decisions and to support co-management 
organizations.
    Climate change is perhaps the most obvious and widely-
acknowledged influence on the future of certain polar 
societies. Other factors play a more immediate role in the 
lives of Arctic residents in many areas. Globalization, 
economic and political transformations, change in cultural 
landscapes, often driven from afar but experienced from the 
North, all are requiring adaptations. This is a summary of my 
more extensive comments that you have on record.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Pete follows:]

           Prepared Statement of Mary C. Pete, Commissioner, 
                    U.S. Arctic Research Commission
Climate Change is Having Serious, Real-Time Impacts on Subsistence 
        Resources and Subsistence Users
    Senator Begich, Senator Stabenow, and distinguished guests, thank 
you for the opportunity to testify on behalf of the U.S. Arctic 
Research Commission.\1\ At the recommendation of Senator Begich, I was 
appointed by President Obama to the Commission in June of this year to 
represent indigenous perspectives and to focus on anthropology, 
subsistence, and education. Additionally, I serve as the Director of 
the University of Alaska Fairbanks Kuskokwim Campus in Bethel, Alaska. 
I previously served as the Director of the Subsistence Division for the 
Alaska Department of Fish and Game, overseeing research and advocating 
for the protection of subsistence rights.
---------------------------------------------------------------------------
    \1\ Under the Arctic Research and Policy Act of 1984, the seven 
Commissioners of the USARC are appointed by the President and report to 
the President and the Congress on goals and priorities for the U.S. 
Arctic Research Program. That program is coordinated by the Interagency 
Arctic Research Policy Committee, (IARPC) chaired by National Science 
Foundation Acting Director Dr. Cora Marrett, who is also an ex-officio 
member of the Commission. See www.arctic.gov for Commission 
publications, including the 2009-2010 Goals and Objectives Report.
---------------------------------------------------------------------------
    As a Commissioner and an Alaska Native subsistence user, I would 
like to share with you how we are experiencing climate change and how 
it is affecting our subsistence traditions. Climate change is happening 
now and collaborative research is needed to understand it and to 
investigate adaptation and mitigation strategies for Arctic subsistence 
communities.
    In the past two decades, Arctic ambient temperatures have warmed at 
twice the rate of the rest of the globe.\2\ Higher temperatures are 
becoming more common in autumn and winter, and daily temperature 
fluctuations have become more extreme.\3\ Alaska is also experiencing 
exaggerated changes in ocean pH (acidity) levels, thawing permafrost, 
reductions in sea ice, changes in precipitation, storm surges, 
flooding, erosion, and increased weather variability.\4\ As a result of 
these changes, indigenous peoples of the Arctic are seeing northward 
range expansion of flora and fauna, the introduction of non-native 
species, decreases and changes in traditional food sources, the 
disappearance of permafrost food storage shelters and ice platforms 
during marine mammal hunting seasons, and coastal erosion is occurring 
so quickly in many villages that homes and community infrastructure are 
quite literally falling into the sea.
---------------------------------------------------------------------------
    \2\ See Parkinson, A.J. et al., (2005), Potential Impact of Climate 
Change on Infectious Disease in the Arctic, 64 Int'l J. Circumpolar 
Health 478, 479.
    \3\ Huntington and Fox (2005), Arctic Climate Impact Assessment,--
Scientific Report. Cambridge University Press, New York.
    \4\ Warren, J. et al., (2005). Climate Change and Human Health: 
Infrastructure Impacts to Small Remote Communities in the North, 64 
Int'l J. Circumpolar Health 487.); Parkinson, A.J., (2008). The 
International Polar Year, 2007-2008, An Opportunity to Focus on 
Infectious Diseases in Arctic Regions, 14 Emerg. Infect. Diseases 1, 2.
---------------------------------------------------------------------------
    Arctic people have a long history of adaptation. These changes in 
climate, however, are occurring much more quickly than ever experienced 
in the Arctic. The effects of climate change on subsistence resources 
are especially of consequence to Arctic indigenous people. To us, 
subsistence is much more than using traditional and natural materials 
for sustenance, tools, transportation, and clothing. Through 
subsistence, indigenous people are able to connect with the land and 
our place in it; we derive our identities from our homeland. To 
indigenous people of the Arctic, subsistence-based knowledge is the 
foundation of important cultural traditions.
    Subsistence resources are affected by changes in the climate of the 
Arctic. Our subsistence resources, which form the backbone of our 
traditional cultural practices, are changing--the places and times 
where we have hunted and gathered for thousands of years are no longer 
the same. Additionally:

  <bullet> Higher than usual temperatures are becoming more common, as 
        are extreme weather events. Weather conditions that might be 
        seen as negative in urban communities are often seen as 
        favorable in subsistence communities. These include rains that 
        make berries and vegetation grow, and blizzards and freezing 
        temperatures that result in conditions that improve winter 
        travel;

  <bullet> Winter storm surges are eroding coastlines, washing out 
        roads, and making travel difficult. A recent General Accountant 
        Office report found that 90 percent of Alaska's 213 
        predominantly Native villages are regularly affected by floods 
        or erosion. Communities are increasingly vulnerable as winter 
        freeze up occurs later and later in the season. This lack of 
        early autumn sea ice places many villages in great danger of 
        storm impact in the absence of ice to control wave action. 
        Storm impacts endanger human life, damage infrastructure and 
        result in erosion;

  <bullet> Hunting is dangerous or impossible on ice when early breakup 
        and late freeze-up create poor ice conditions. Many traditional 
        hunters have difficulty gaining access to land mammals (e.g., 
        caribou) because in sufficient snow prevented effective use of 
        snow machines. Access is restricted to subsistence resources 
        and there is increased risk and reduced efficiency to our 
        hunting;

  <bullet> Quality of animals is changing--for example, because ice 
        seals have thinner blubber, it takes more of them to produce 
        the amount of oil we need to get through the winter--or we just 
        do without;

  <bullet> Lack of haul out ice platforms for seals and walruses is 
        causing problems for the species and is reducing hunter access;

  <bullet> The composition, distribution, and density of subsistence 
        species are changing. These changes directly affect the 
        subsistence species available for harvest;

  <bullet> Thawing of permafrost results in habitat changes, sinking 
        buildings and melting ice cellars, making long-term storage of 
        traditional foods more difficult. It also preconditions the 
        land for greater impacts from secondary storm surges, as 
        described above;

  <bullet> Fisheries are changing with changes in ocean circulation, 
        currents, water temperatures, ice coverage and nutrient 
        availability. Decreases and changes in anadromous fish stocks 
        directly affect the economic and dietary well being of 
        subsistence users; and

  <bullet> Changes and interruptions are occurring in the passing of 
        traditional ecological knowledge (TEK).

    Health and cultural activities of Alaskan Native peoples will be 
harmed by a decline in subsistence practices. Subsistence diets are 
rich in fish and marine and land mammals and offer numerous health, 
social, cultural, and economic benefits. Proven health benefits include 
protection from cardiovascular disease and diabetes and improved 
maternal nutrition and neonatal and infant brain development. With the 
cost of a pound of ground beef upwards of $10, and little or no 
available fresh produce in many villages, there are also serious 
economic and health implications related to a decline in subsistence 
practices that may result from climate change.
    Emigration is a serious problem in many villages. This is a 
phenomenon that needs further study, but is likely to be exacerbated by 
a decline in subsistence success caused by climate change. As 
subsistence opportunities decline, it may become cost prohibitive to 
stay in the village, encouraging residents to relocate to hub villages 
and Anchorage. Angayuqaq Oscar Kawagley has written that many social 
ills of rural Alaska can be attributed to the disenfranchisement of 
Alaska Natives with our cultural traditions. Subsistence is a key 
component of our cultural traditions. Separation of Alaska Natives from 
our cultural traditions may lead to feelings of decreased self-worth 
and foster substance abuse, violence, and suicide. It is important to 
protect subsistence cultural traditions.
    To understand the dynamics of climate change and subsistence 
harvest and use, there needs to be greater emphasis and coordination of 
research among the agencies. The need for research is two-fold. First, 
to understand traditional ways of knowing and action, agencies must 
collaborate with indigenous Arctic populations--to establish a baseline 
of understanding of topics such as where berries grow, when and where 
ice develops, and the thickness of seal blubber and caribou skins. I 
note that there is a wealth of this type of information at the Division 
of Subsistence, Alaska Department of Fish and Game. The division is 
charged with providing information to ensure that the state implements 
the subsistence priority law. To understand how subsistence resources 
are changing while providing for validation of indigenous knowledge, 
agencies should conduct research in collaboration with tribal groups. 
Only after we understand how subsistence resources are changing can the 
most effective policies be developed for protecting subsistence 
traditions.
    Policy measures need to be developed to help build resilience. Co-
management groups need to be supported and strengthened so they can 
play a strong role in relaying local concerns and potential solutions. 
In the past, these groups have played an important role, but as climate 
continues to change and litigation continues in regard to subsistence 
resources and climate change, co-management groups should play an 
elevated role, they should conduct additional research, and funding 
should be reprioritized in order to fulfill these tasks. Currently, the 
Senate version of the Commerce, Justice, Science and Related Agencies 
Appropriations Bill includes funding for seal and Steller sea lion 
research, Alaska Native marine mammal co-management, Bering Sea crab 
management and research, and ocean acidification research. These 
requests are included as part of the C-J-S bill at the request of 
Senators Begich and Murkowski.
    In conclusion, the Federal Government has acknowledged that it has 
trust responsibilities to American Indian and Alaska Native people that 
include providing for health, safety and cultural preservation. Climate 
change endangers this trust responsibility because it may harm 
subsistence resources, and result in health declines in subsistence 
users, foster social ills, and inhibit cultural preservation efforts. 
Congress should look for ways to encourage greater collaboration among 
the agencies, scientists and tribes to evaluate climate change and its 
effect on subsistence and to develop consensuses on mitigation 
strategies. Additionally, policies should ensure that traditional 
ecological knowledge is used in developing resource management 
decisions.

    Senator Begich. Thank you very much. Marilyn, thank you 
very much, Marilyn Crockett, for being here.

 STATEMENT OF MARILYN CROCKETT, EXECUTIVE DIRECTOR, ALASKA OIL 
                      AND GAS ASSOCIATION

    Ms. Crockett. Thank you. Thank you. First, I will start by 
mirroring the other welcomes that you've heard today. It's so 
important that we have Senators from Congress come and see this 
firsthand.
    Senator Begich, thanks very much for sponsoring this field 
hearing. We very much appreciate it.
    Senator Begich. Thank you.
    Ms. Crockett. The energy development in Alaska, as I'm sure 
you know, has played a major role not only for North Slope 
residents but the State of Alaska and the Nation, as well.
    At peak, production from the State of Alaska accounted for 
20 percent of the Nation's energy supply. Today, it's down to 
about 12 percent but still that's a very significant factor 
obviously when we look at import rates at 60 percent. So energy 
development in Alaska plays a very key role.
    As has been stated by others, and the Senator recognizes 
this very well, Alaska has produced over 16 billion barrels of 
oil to date, but that, while it feels like a major achievement 
and it is a major achievement, in fact that number is somewhat 
dwarfed when you look at the potential that still remains.
    As Admiral Colvin pointed out, one-third of the Nation's 
energy resources offshore are offshore the State of Alaska. So 
the state can play a very, very critical role in the Nation's 
energy supply.
    You've heard a recurring theme today and it almost sounds 
like we coordinated our messaging but in fact that did not 
happen with regard to research. Can't emphasize enough and 
you've heard it several times, the importance of evaluating the 
research that has been conducted already, identifying the data 
gaps that are out there and prioritizing the limited resources 
that all of us have and focusing on those.
    Since the 1970s, the industry has privately funded hundreds 
of millions of dollars in research studies back in the 1970s 
focused on engineering studies, wave, wind and oceanography 
matters in sea ice.
    Fast forward to today and more than a $150 million has been 
invested just in recent times on new environmental and 
wildlife-related studies over the past several years and that 
doesn't include the money that's spent on a day-to-day basis on 
ongoing monitoring and research in conjunction with existing 
fields, and we all know that the former MMS, now BOEMRE, has 
spent over $350 million on this research.
    These are very, very important, but there still remains 
some work to do and one of the things that I wanted to 
specifically mention is the work that the USGS is doing. Last 
spring, late last spring, USGS was tasked with undertaking a 
comprehensive independent evaluation of science needs to 
understand the resilience of Arctic coastal and marine 
ecosystems to OCS resource extraction activities.
    This evaluation is limited to the Beaufort Sea, so we'll 
have a good snapshot of what's happening for us up here. USGS 
will summarize key existing information, develop a process and 
identify where knowledge gaps exist, and provide guidance as to 
what research is needed, and we think that this report is 
scheduled to come out in the Spring of 2011.
    We believe it will be an important tool and that it will 
demonstrate the depth and breadth of the research conducted to 
date.
    Additionally, we also understand that it will address 
opportunities for and obstacles facing collaboration on current 
and future research, as well as the importance of maintaining 
what I call a centralized home for the science.
    Research continues around the world and in the Arctic and 
is commissioned and carried out by a very large number of 
entities, but our ability to assimilate that work has been 
constrained. Doing so will enable all of us to build upon 
previous results, avoid duplication, and prioritize future 
work.
    Finally, it's important to realize that or to observe that 
the research that I've been talking about is really related to 
oil and gas but much of it will carry over and will be 
extremely useful in evaluating the impacts from climate change, 
evaluating how the ocean is looking these days, and it also 
will set the stage for making decisions on what may be 
happening in terms of future activity, as the Admiral 
mentioned, with regard to shipping and tourism, fisheries, and 
so on.
    I'd like to shift just briefly to giving the agencies the 
tools. That's what I sort of label this next topic. One of the 
greatest challenges facing agencies charged with managing the 
Arctic and its species is that of limited resources. Laws are 
enacted by Congress and are assigned to agencies to carry out, 
but, unfortunately, the resources to do so are frequently 
inadequate.
    By way of example, we've watched this unfold here in Alaska 
related to the Cook Inlet Beluga Whale, an issue that the 
Senator is very, very familiar with. National Marine Fisheries 
Service is charged with managing this whale but it did not have 
the resources it needed to conduct thorough monitoring or 
population counts early in the beginning of the population 
decline to react. Only when the population was listed as 
depleted and, unfortunately, subsequently endangered under the 
ESA did additional funding get appropriated to NMFS.
    This limitation on resources also affects the agency's 
ability to timely issue permits. For example, NMFS is 
responsible for issuing incidental harassment authorizations or 
IHAs required for any activity, including any scientific 
activity, that has the potential to interact with species that 
they manage.
    These IHAs are important to the protection of the species 
because they contain the stipulations and mitigation necessary 
to conduct that activity, in other words, to protect the 
species. It's therefore somewhat ironic that they don't have 
the resources necessary to timely issue these permits, even 
taking into account the long lead times for applications.
    And then, finally, another factor affecting the agencies 
are the number of petitions for listing those species under the 
Endangered Species Act and the subsequent filing of lawsuits 
that follows.
    These already limited resources of agency personnel are 
continually drawn away from their rightful management of the 
species to deal with these legal challenges and I know that's 
not directly the subject of today's hearing but it's 
increasingly clear that the ESA is being wrongfully utilized as 
a tool to stop any kind of development or activity and today 
nowhere is this more true than in Alaska.
    Finally, I can't conclude my comments without giving a nod 
to Senator Begich and recognizing that the Alaska Oil and Gas 
Association has advocated for OCS revenue-sharing for Alaska's 
coastal communities and we will continue to do so until 
enacted.
    While it's true that the coastal communities will benefit 
from OCS development in terms of jobs and property taxes, these 
coastal areas are unique when compared to coastal areas of the 
Lower 48 and that they do not have the same level of 
infrastructure to accommodate increased demands on local 
services.
    So again, we commend Senator Begich for his efforts and 
those of his colleagues and we're looking forward to having 
this matter moved along.
    And with that I'll conclude my comments. Thank you.
    [The prepared statement of Ms. Crockett follows:]

      Prepared Statement of Marilyn Crockett, Executive Director, 
                     Alaska Oil and Gas Association
    Good morning. My name is Marilyn Crockett and I am the Executive 
Director of the Alaska Oil and Gas Association (AOGA). AOGA is a 
private, nonprofit trade association whose member companies account for 
the majority of oil and gas exploration, production, transportation, 
refining and marketing activities in the State of Alaska.
    We want to first thank Senator Begich for holding this field 
hearing in Alaska and to Senator Stabenow for taking the time to travel 
to Alaska's north slope and to Barrow. Your efforts not only provide 
you an opportunity to see the Arctic first-hand but also provide an 
important and infrequent opportunity for north slope residents and 
public officials to share with you their experiences and vision and 
offer recommendations for initiatives which your committee may 
undertake.
    For more than 30 years, energy development across Alaska's north 
slope has played an important role not only to north slope residents, 
but to everyone in the State of Alaska, as well as the entire Nation. 
At peak production, north slope oil accounted for more than 20 percent 
of the Nation's domestic energy supply. Today, even at the reduced rate 
of just over 12 percent, there can be no question that production from 
Alaska is a critical component of the Nation's energy supply, 
especially in the face of foreign imports which exceed 60 percent.
    And the prospects for expanding the role Alaska can play in the 
future are tremendous. While Alaska has produced over 16 billion 
barrels of oil over the last 30 years, that achievement feels somewhat 
dwarfed by estimates of what remains: 30 billion barrels of oil and 220 
trillion cubic feet of natural gas. To put this into another 
perspective, for the OCS alone, Alaska is estimated to contain one 
third of the Nation's offshore energy resources.
    Development of these resources is not without its challenges, 
however. It is our sense that this is one of the fundamental reasons 
for this field hearing: identifying those challenges, establishing 
initiatives to address those challenges, and removing obstacles which 
stand in the way while protecting the environment and preserving the 
cultural way of life for local residents and communities. It's our 
belief that that objective can be achieved.
The Importance of Research
    There is no disputing the fact that sound science is the key to 
addressing factors related to climate change, resource development, and 
protection of the environment, wildlife and habitat. Research funded by 
the industry in Alaska's arctic offshore has been underway since the 
1970s, with a focus at that time on wind, wave, oceanographic and sea 
ice dynamics, along with engineering studies aimed at technology 
development to operate in the arctic. Fast forward to today: more than 
$150 million has been invested by industry in new environmental and 
wildlife-related studies over the past several years (not including 
ongoing research conducted onshore in conjunction with new developments 
and operations at existing fields), and the former MMS (now BOEMRE) has 
spent over $350 million.
    This research and scientific studies are ongoing today and will 
continue into the future. But to be most effective, it's important that 
agencies, industry and scientists evaluate what's been done, identify 
what still needs to be done, and prioritize and fund that work. 
Progress in this regard is being made.
    Pursuant to a directive from the Secretary of the U.S. Department 
of Interior, the U.S. Geological Survey (USGS) is undertaking a 
comprehensive, independent evaluation of science needs to understand 
the resilience of arctic coastal and marine ecosystems to OCS resource 
extraction activities. This evaluation is limited to the Chukchi and 
Beaufort Seas. USGS will summarize key existing information; develop a 
process and identify where knowledge gaps exist; and provide guidance 
as to what research is needed. Their report will be issued in the 
Spring of 2011. We believe this report will be an important tool and 
that it will demonstrate the depth and breadth of the research 
conducted to date.
    Additionally, we understand it also will address opportunities for 
(and obstacles facing) collaboration on current and future research, as 
well as the importance of maintaining a centralized ``home'' for this 
science. Research continues around the world and in the arctic and is 
commissioned and carried out by a large number of differing entities, 
but our ability to assimilate that work has been constrained. Doing so 
would enable all of us to build upon previous results, avoid 
duplication and prioritize future work.
    Finally, it's important to observe that, while the genesis of this 
research is related to oil and gas, much of it will contribute greatly 
to evaluation of the other potential activities or changes we may see 
in the future in the arctic oceans (such as increased shipping and 
tourism, fisheries, etc.), as well as increasing our knowledge-base on 
wildlife critical to subsistence activities. As such, the Federal 
Government has a responsibility to financially invest in these research 
initiatives.
Give Agencies the Tools
    One of the greatest challenges facing agencies charged with 
managing the arctic and its species is that of limited resources. Laws 
enacted by Congress are assigned to agencies to carry out, but 
unfortunately, the resources to do so are frequently inadequate. By way 
of example, we watched this unfold here in Alaska related to the Cook 
Inlet beluga whale. The National Marine Fisheries Service, charged with 
managing this whale, did not have the resources it needed to conduct 
thorough monitoring or population counts early enough in the beginning 
of the population decline to react. Only when the population was first 
listed as depleted, and subsequently endangered under the Endangered 
Species Act, did additional funding get appropriated to NMFS.
    The limitation on resources also affects the agency's ability to 
timely issue permits. For example, NMFS is responsible for issuance of 
Incidental Harassment Authorizations (IHAs) required for any activity 
(not just oil and gas development) which has the potential to interact 
with the species that they manage. These IHAs are important to the 
protection of the species in that they contain the stipulations and 
mitigation measures necessary to conduct the activity (i.e., protect 
the species). It is therefore somewhat ironic that they don't have the 
resources needed to issue these in a timely manner . . . even taking 
into account the long lead-times for applications.
    Finally, another factor affecting these agencies is the plethora of 
petitions requesting listing of species under the ESA, and the 
subsequent filing of lawsuits that follow. The already-limited 
resources of agency personnel are continually drawn away from their 
rightful management of the species to deal with these legal challenges. 
Although not directly the subject of today's hearing, it is 
increasingly clear that the ESA is being wrongfully utilized as a tool 
to stop any kind of development or activity . . . and today nowhere is 
this more true than in Alaska.
Enact OCS Revenue Sharing for Alaska
    The Alaska Oil and Gas Association has consistently advocated for 
OCS revenue sharing for Alaska's coastal communities, and we will 
continue to do so until enacted. While it is true that coastal 
communities will benefit from OCS development in terms of jobs and 
property taxes, these coastal areas are unique when compared to coastal 
areas of the lower 48 states in that they do not have the same level of 
infrastructure to accommodate increased demands on local services. We 
commend Senator Begich for his efforts, and those of his colleagues, on 
this important matter.
    This concludes my comments. Thank you for inviting me to 
participate in this field hearing.

    Senator Begich. Thank you, Marilyn. Let me--I have a few 
questions. Then I know Senator Stabenow will probably have some 
questions. So I'll start with a couple.
    First, again, thank you all for testifying. Those that have 
written testimony they would like to submit to the record, I 
know some have already done that, we will accept that and have 
that as part of the official record. So please do that so that 
your words are part of the record we take back to Washington, 
D.C.
    Let me first, maybe directly to you, Mayor, if I could, and 
give me a sense of how the community in the North Slope feels 
about offshore oil and gas development and their role or their 
connection to it. In other words, do they feel they're being 
heard? Do they think Federal agencies are part of the equation 
enough with them? Give me kind of the sense of--I know we've 
had some brief conversations, but I am curious as to how you 
see the community interacting with the Federal agencies and are 
they being heard enough, and is there a good process?
    Mr. Itta. Thank you, Senator. As you know, most of the----
    Senator Begich. Is your microphone on there? Sorry about 
that.
    Mr. Itta. I'm sorry. Is that better?
    Senator Begich. Better.
    Mr. Itta. As you know, most of our people historically have 
been opposed to OCS development for a number of reasons, not 
the least of which is that it negatively affects on our 
traditional whaling and I must note at this time that we feel 
that there's a lot of onshore development to be done yet and 
that that should be pursued before we start drilling in the 
water since we know that the risks are not nearly as great.
    To answer your question, the people, in terms of people's 
experience with Federal agencies, I'd have to say it has been 
mixed. I'm a hunter and a whaler and have been a member of the 
Barrow Whaling Captains Association that have participated 
actively for 40 years in the MMS hearings. That's how long 
we've been dealing with them here and I understand now they're 
the Bureau of Ocean, Energy, Management something something.
    Senator Begich. The guys that watch the water.
    Mr. Itta. But it has been mixed. The long and short of it 
is that the North Slope Borough and the whalers have been 
frustrated, very frustrated in terms of responses and I'm going 
to refer to the agency as MMS, that MMS has been less than 
responsive to local suggestions and comments, and they've 
always encouraged us to show up at one hearing after another, 
but they very rarely ever incorporate any of our comments or 
concerns into their regulatory framework.
    So it's no wonder that lately there is less and less 
participation because the citizens say what's the use? It 
doesn't matter. They're just meeting their required you got to 
have a meeting here with the public type thing. That's the 
attitude that's prevailed. Now that's unfortunate, but this is 
a new day and we're hopeful.
    I'd like to get a little specific on that and that one 
example we had suggested to MMS, which seemed perfectly 
reasonable to us, is that they limit the number of exploratory 
or operations offshore. Nobody has ever determined that five 
projects are OK or is it 10 or is it 50 or is it 100 and what 
we know as users of the ocean up here is what we call 
cumulative impacts. The permitting system takes each one by 
itself but never looks at the thing as a whole and that's 
something that would give real assurance, I think, to our 
people that there's a meaningful cap, if you will, that lessens 
the intensity of the activity and we've had assurances by 
industry that only a certain number of ships and assets can be 
up here because there are a limited number of Arctic-capable 
assets, if you will.
    If that's the case, it makes perfect sense to put a number 
and make it into a part of the law and I know that certainly I 
would think that that would give our people a level of comfort 
and it's just a common sense measure to us that we've been 
bucking the wind on this issue like it's something.
    So thank you, Senator.
    Senator Begich. Let me ask you with Marilyn here and both 
of you, I know, tell me kind of the relationship that the North 
Slope, the Arctic Slope, the communities have with the oil 
ventures that have been here now for many decades and, you 
know, from obviously someone born and raised in the state, I 
see it as a unique--I think Richard kind of carefully described 
it as a balance between recognizing the change that's 
occurring, the needs of the community and how to balance that 
for both the resource development and the unique lifestyle 
here.
    How would you describe the relationship with the industry 
from, you know, your personal or your view from the community?
    Mr. Itta. If I may say so,----
    Senator Begich. And then I'm going to jump to Marilyn to 
give a----
    Mr. Itta.--I'll just say I think that we've had a great 
relationship with the oil and gas and also with the regional 
corporation in regards to resource development and management 
of those things. So, of course, we have differences but that's 
OK.
    But since Prudhoe Bay almost 40 years ago, we've had a 
great working relationship with industry and the Oil and Gas 
Association and we hope to continue to do so.
    Senator Begich. Marilyn, do you have some----
    Ms. Crockett. Thank you. I would have to agree. There's a 
natural tension, as there should be, because we each have our 
respective interests but there's a natural tension between the 
industry and any form of government but particularly the form 
of government that is responsible for the lands on which we're 
operating or nearby.
    But having said that, I know from personal experience that 
the companies go to great lengths to visit with the villages, 
sometimes at a fault, because I think they feel like there's a 
revolving door of newcomers showing up for yet another town 
hall meeting and we're sensitive to that, so we've been trying 
to weigh that.
    But I would say that the relationship between the trade 
association and the borough, in particular, while we've had our 
differences of agreement, as the Mayor just pointed out, we 
still have had a very open door in terms of being able to air 
those differences and trying to reach some common ground.
    Senator Begich. Very good. I have two other quick questions 
I'm going to do and then I'm going to hold. I know we're a 
little over time but I'm going to ask--Debbie has questions and 
then I'm going to probably pop back for one more round.
    But let me ask, if I can, Marilyn, in regards to the 
Deepwater Horizon. You know, when I'm back in Washington, I 
spend a lot of time trying to explain the difference to Arctic 
exploration, oil and gas activity in the Arctic versus what 
goes on down in the Gulf of Mexico, and I've had to explain--
you know, I became, you know, in a lot of ways like Richard 
was, like Mr. Science here.
    I was really--I could tell you were about to give us a good 
long explanation which was good. So I've become like mini Mr. 
Science in the Senate trying to explain the differences.
    Could you, in a very short way, kind of just--you know, 
when people hear the Deepwater Horizon, they think, you know, 
we're drilling 5,000 feet before we even--you know, we're going 
down 5,000 feet before we touch the ocean floor which is not 
the case.
    Ms. Crockett. Yes.
    Senator Begich. Can you----
    Ms. Crockett. Absolutely. The Arctic offshore environment 
is very, very different, as the Senator just pointed out, than 
Gulf of Mexico.
    Water depths in the Chukchi Sea, for example--well, first 
of all, the leases that are being looked at today to be drilled 
are about 80 to 100 miles offshore. The closest lease is 60 
miles from shore, the farthest lease is about a 150 miles 
offshore. So, Number 1, it's not quite as far from shore.
    Number 2, water depths are substantially different. We're 
looking at an area that's about a 150 feet deep as opposed to 
5,000 feet deep. So from that perspective alone, it's a much--
it's probably inaccurate from a scientist point of view. It's a 
much less dynamic environment because the water depths are 
shallower.
    Third, the reservoir pressures are much, much different. 
Reservoir pressures in the Chukchi Sea and the Beaufort Sea, 
for the most part, excluding some onshore areas, are much, much 
less. So the ability to, Number 1, contain a blowout, should it 
occur, is, to use a layman's sort of point of view, it's 
probably the difference between, let's say, a firecracker and 
an M-80 that's going off, just to sort of put it in 
perspective.
    So those are really, in a nutshell, to be very brief in 
answering your question, those are the----
    Senator Begich. Sure.
    Ms. Crockett.--biggest differences in terms of the 
operating environment.
    The other difference that I'll point out is that in Alaska, 
we have a very limited number of players, companies that are 
operating here. The Chukchi Sea, for example, even though it 
was a $2.7 billion lease sale, has roughly six leaseholders. A 
$2.7 billion lease sale in the Gulf of Mexico would generate 2 
or 300 lease holders. So smaller, a fewer number of players, 
much, much, much less activity occurring, and an operating 
environment that's much different.
    Senator Begich. Very good. Thank you. Into that, I want to 
go, Admiral. During the Commerce Committee, I had an idea, an 
amendment, and we weren't able to move it forward in the Shore 
Act which is a piece of legislation that Senator Rockefeller, 
the Chair, has put together as well as we've been able to put a 
lot of our Arctic and Alaska kind of components into.
    But one of the pieces I wanted to add in there but we were 
unable to, because I think when you say it and I'm about to say 
it, it gets people nervous and that is, and you've kind of said 
it in your testimony, and that is, in order for us to 
understand oil spill technology and how to maximize it and 
improve it, we actually have to have controlled spills in order 
to do that which means we have to do that on the water which 
means we violate the Clean Water Act in order to understand 
what we're preparing ourselves for because the only time we do 
this research and that degree of research is when something bad 
happens, like in the case of Exxon Valdez. So that's when we're 
suddenly trying to move along and understand this new 
technology.
    Can you give me--I mean, I'm a believer in this, that, you 
know, this is--understanding this technology, if you don't have 
a controlled environment and that is one of the big issues that 
comes up, was how do you deal with the Arctic environment. 
Well, the best way to do that is you've got to sample it a 
little bit and understand it and that means you have to not 
just model it on a computer but you actually have to touch the 
water at some point.
    Can you give me some thoughts from the Coast Guard on that? 
Every time I mention that,----
    Admiral Colvin. Senator,----
    Senator Begich.--I will tell you that just as soon as I 
mention it, people like go crazy because they think it's--you 
know, we're going to go out there and pollute the water. Well, 
we've got to figure this out.
    Admiral Colvin.--you know, Senator, I think small amounts 
of water in a controlled type of, very controlled type of 
environment that's actually in the Arctic would be very 
beneficial for us from a response perspective, oil response 
perspective.
    The challenge we have right now is a lack of data. The 
Coast Guard will be responsible to oversee an oil spill that 
may happen. The responsible party, of course, is the party 
tasked to actually clean it up, along with the Federal 
cooperation and state cooperation.
    Sir, the data that we have to rely on right now is 
essentially from Norway and----
    Senator Begich. Because they've done this kind of research?
    Admiral Colvin.--they've done it, yes, sir, and getting the 
data from Norway is completely subjective to them allowing us 
to see it and they've been a great partner and they have 
allowed us to have access to their information.
    But I think it's important to realize that the climate in 
Norway is significantly different. When you're up at Latitude 
80 up there, you can still fish and they have a thriving 
commercial fishing industry. Latitude 80 here is frozen. It's a 
different world over here.
    So, you know, you look at the results and you say, OK, you 
know, it's instructive, but I sure wish we could do a little 
bit in an isolated area, particularly in broken ice, maybe in 
the spring, that type of thing, to find out what works and what 
doesn't work, and I just don't know any other good way to do 
it, sir.
    Senator Begich. Thank you. My last question. Laura, as you 
do the Arctic Visioning Strategy, I want to kind of go back to 
Mayor Itta's original--my original question to Mayor Itta.
    How are you engaging and actually, Richard, you brought it 
up, too, the connectivity to the multiple villages, not just 
being here in Barrow but how is your agency engaging not in 
what has been described by Mayor Itta, the MMS, I call it check 
the box and move on routine, but really hearing their thoughts 
on how you develop that Arctic Visioning Strategy rather than, 
no disrespect to all professors and all Ph.D.s and all the 
people back in D.C. just drawing up stuff, but how do you 
engage with folks like, as Richard said or Mayor Itta or Mary 
Pete, how do you--what is the strategy there?
    Ms. Furgione. Thank you, Senator, for your question. When I 
moved back to D.C., the first thing they told me was to make 
sure not to drink the kool-aid and to stay connected with the 
local communities. So you understand that concept, as well.
    We have a number of ways to maintain our connectiveness to 
the local communities. As Mr. Glenn had said that we do have a 
weather service office right here in Barrow and other NOAA 
entities.
    We also have partnerships with the University of Alaska, 
Fairbanks. Hio Iken is participating in a research project to 
make sure that they are looking at this traditional ecological 
knowledge, to incorporate that into our forecasts, and we even 
have products now for the first time that try to incorporate 
that information into our services and products so they can 
better understand how the sea ice may impact the whalers and 
the whaler centers.
    Two other points is that we do have Amy Holman here with me 
today. She's our NOAA Alaska Region Coordinator, so she makes 
sure to facilitate across all of the NOAA line offices and also 
to our stakeholders and partners.
    We also just have a new Regional Climate Service Director 
James Partain was just selected this week, as well. So we can 
have a focus on the climate change right here in the state with 
connections then to NOAA's intent to create the NOAA Climate 
Service.
    Senator Begich. Very good. Let me end there. Senator 
Stabenow. Could you introduce and have Amy stand up, so 
people--only because I want her to be seen by all those that 
have input. OK. Thanks, Amy. Thank you.
    OK. Senator Stabenow.
    Senator Stabenow. Well, thank you, Senator Begich. Thank 
you to each of you. I'm learning a lot and have many questions. 
I won't ask all of them.
    But, Mayor, let me just go back to you, and I know it's 
very clear to me that, on the one hand, the oil and gas 
industry has been a huge blessing in terms of the economy and 
jobs and the resources certainly for our country, the resources 
that we know are there that haven't been explored yet.
    On the same token, the challenges, the concerns, the risks, 
obviously certainly in a broad sense, both the benefits from 
this great natural resource, but the carbon pollution that 
comes from that is, on the other hand, creating the warming. So 
they are great challenges, I think, and tensions that you can 
see trying to work through all of that and I'm really learning 
more about that.
    But I know you have concerns. You've mentioned concerns 
about offshore drilling which we certainly all appreciate. I 
mean, I appreciate that coming from the debate even in our own 
Great Lakes about that, what has happened in the Gulf and so 
on.
    Talk about onshore oil exploration for a moment because 
this has been a very big part of your economy and jobs, and if 
the onshore resources are no longer there, if it's moved 
offshore, what does this mean to the borough in terms of your 
economy and private sector jobs?
    Mr. Itta. Thank you, Senator, and I'm glad you asked that 
question.
    As Mayor of the North Slope Borough, that is one of the 
lessons that I've learned on my job, that one of the unique 
responsibilities of being Mayor of a borough is to maintain not 
only the present economic well-being of the region, but the 
future economic well-being of the region.
    I want to refer to three items that are ongoing. One is in 
ANWR and that is in the 10.02 area on the efforts to 
redesignate and virtually shut down any opportunity for oil 
exploration within the coastal plain.
    The second one was denial of the permit for what we call 
CD-5 that you would look over as we go toward Prudhoe Bay 
Alpine today, was the denial of that permit to get a pipeline 
crossing across the Colville River which we look at as the 
gateway to further oil and gas development within the National 
Petroleum Reserve Alaska, NPRA, that you flew over.
    Third was the current shutdown of any opportunities on 
offshore, albeit temporary and with very good reason because of 
the Gulf of Mexico incident, but what has happened is that, in 
essence, in two generations up here since the discovery of oil 
in Prudhoe Bay, we have gone from a subsistence-based economy 
to a cash economy where we are now dependent on oil and gas and 
mainly now oil and gas for the bulk of our revenues to provide 
for the life safety and essential infrastructure of our vast 
region up here. And we cannot go back and that is why I 
continue to advocate for at least the eight policy positions to 
be addressed in the hopes that the concerns will be mitigated 
up here, and if offshore has to happen, which is what the 
Federal Government, the past President and the current 
President, and industry seem to be doing, rather than just say 
no for no's sake, I've been advocating a position that strikes 
a balance, if you will, to use Secretary Salazar's statement, 
that I think that's enough said.
    But we recognize the importance of oil and gas for the 
economic well-being of our region because, as my colleague 
Richard stated, things are different up here. It's very unique. 
Things are so expensive. There's no roads. We maintain largely 
our airports, roads, schools, health clinics. Virtually every 
service is provided for by the North Slope Borough with revenue 
largely from Prudhoe Bay.
    Thank you.
    Senator Stabenow. Just a little bit more on jobs because at 
first glance, the very high-tech world of oil and gas 
exploration seems very different from the ancient traditions of 
bowhead whaling and skin boats, and I'm wondering, and this 
would be for Mr. Glenn, as well, if you wanted to respond, how 
the oil and gas companies have worked with your community, with 
the Native American communities, the village corporations, to 
make sure that there were local jobs and local hires.
    Is this an area where there needs to be more done? Is this 
an area that has worked well?
    Mr. Itta. Senator, if you would, I would defer to my 
colleague----
    Senator Stabenow. Mr. Glenn?
    Mr. Itta.--Richard Glenn on that, but, all in all, I think 
they have done everything that was possible and with that, I'll 
give it to Richard.
    Mr. Glenn. So we've developed local training for local jobs 
in our region in the hopes that our children, grandchildren 
will be able to find a sense of worth, well-being, economic 
opportunity and benefits and insurance packages and retirements 
and everything that goes with a career, not just a job, and 
that has been the vision of this Mayor, previous mayors that I 
have worked with, and of our regional corporation, the 
leadership that still exists in our regional corporation today 
and those who founded it.
    But we haven't done that well and I think that there's room 
for improvement on both sides. If you take the time to look 
back a little bit when oil exploration was the only activity in 
our area, with the exception of isolated villages with almost 
no infrastructure, people left home to go to work because they 
had to feed their family and that would keep them away from 
home for half years at a time.
    Edward's part of this effort. I'm talking about the 
exploration and discovery of Prudhoe Bay and the big fields 
that came right after it, late 1960s to late 1970s, and at the 
same time our borough was born and the borough was born to 
improve the quality of life for our people.
    So there was a bloom of construction opportunities here at 
home, as well, and then so one generation of folks had to leave 
home to feed their families. The next generation of folks maybe 
were able to chase opportunities in their local village.
    So now where are we? The borough revenues had hit a peak in 
the, I would say, mid-1980s and have been on a slow decline 
ever since then. There's less and less of a local economic 
engine. If you're relying only on government service jobs, I 
think that this has been a mixed blessing for our people. There 
has been a generation of young folks that have grown up maybe 
not having the necessity to leave their home to work in this 
image we have of people who are getting healthy jobs in 
industry, but it's happening. It's happening and industry 
deserves credit for training programs. We deserve credit for 
training programs and it's growing.
    What people need is someone to make trail in front of them. 
A young person will see a role model that has done something 
and he'll follow and it kind of introduces a wave or a pyramid 
of people behind them and where we're traveling today with you, 
I hope Inupiat should be the postcard example of jobs in 
industry because this is walk-to-work distance almost. It's 8 
miles or 10 miles.
    Senator Begich. In D.C., we would say that would be 
impossible to have done. But eight miles is like eight blocks 
in comparison.
    Mr. Glenn. Right.
    Senator Begich. If you want to give a comparison.
    Mr. Glenn. If you look out your living room window from 
Inupiat, where we were just visiting with representatives from 
the Department of Interior, you can see the drill rigs. You can 
see the flares, the safety flares from the production 
operations at night and so it must really rub people the wrong 
way if that's there and they are somehow either unable or not 
participating in full-time satisfactory employment, and I don't 
think that the answer is because there's this cultural 
difference between pure subsistence lifestyle and the modern 
tools of industry because we've had this question before.
    If you go to even our smallest village, there's a power 
plant running. There's a water-sewer plant running. There are 
the physical plants of a village and if you open the door in 
there 24 hours a day, three shifts around the clock, 7 days a 
week, chances are there's an Inupiat person there working the 
shift. His duty is to the shift, his duty is to keep the lights 
on. It happens here at the local gas fields, too, because I was 
there, and so when the power goes out, they wake up worried. 
What did I do wrong? Is my partner not monitoring his station?
    And so these people have not sacrificed their culture for 
their duty to their community, in the same way I know our 
people did not sacrifice their culture for gainful satisfactory 
rewarding jobs in the oil patch.
    The problem is making it happen and making it. In some 
examples, some of our role models were champions fighting 
industry and it's hard for the next generation to look back to 
the same thing that my uncle or my grandfather was fighting and 
now say I want to be a part of you. So we got our own issues to 
take care of, but it's happening and any help there would be 
encouraged.
    Your earlier question was also important. If oil 
production, exploration production comes to the ocean, I think 
the borough still stands to benefit because, from everything 
I've heard, the oil has to come ashore. When it comes ashore, 
it has a landfall. There will be facilities there. There will 
be pipelines transmitting it to, hopefully to a tap system. 
That would be something that rivals the Great Wall of China in 
this part of the world because it would be a huge new piece of 
infrastructure, tax opportunities, and might open the door to 
new safe onshore exploration opportunities that are currently 
being held fallow because there's no infrastructure nearby.
    So even offshore development holds benefits to our borough, 
to our village residents for employment and tax base.
    Senator Stabenow. Thank you. Just a couple questions 
related to the offshore drilling because with what happened 
with deep water horizons is just very--you know, it's very 
present for all of us who have gone through months now of 
briefings and looking at what's happening and working with our 
colleagues in the Gulf and so on.
    And, Ms. Crockett, you spoke about it being different here 
because it's not as deep and so on, but how would the companies 
access the offshore resources and how would they respond, I 
mean, if something were to happen here? Do you feel confident 
in the ability to respond with existing technologies and 
resources and so on?
    Ms. Crockett. Yes, Senator. Thank you. Thank you for that 
question.
    Yes, I do. If we look at--the company that has the--that is 
the most active, if you will, if they could be active, they 
would be active, is Shell and if you look at the plans that 
they had in place for their drilling program in the Chukchi 
Sea, it was extraordinary and it was unprecedented.
    They had 24/7 response vessel capability nearby. They had 
built-for-purpose ships that were at the location, that would 
be at the location the entire time that they were drilling 
during the exploration phase. So really an unprecedented, 
especially here in Alaska, kind of drilling program that we 
don't see anywhere else in the United States, frankly.
    A lot of that has to do with the fact that it is a remote 
operating area. There's not another platform that's 10 miles 
away that you can, you know, call for assistance from and so 
they really ramped up to do that. So that's just one example of 
sort of the differences in the capability of the industry as it 
operates in the offshore.
    In the Beaufort Sea, drilling activity that may be taking 
place there, very, very shallow water depths, very, very close 
to existing infrastructure obviously with Prudhoe Bay and the 
existing infrastructure there and the cleanup organizational, 
Alaska Clean Seas, that's in existence at that location.
    Senator Stabenow. Thank you. Just a couple of quick 
questions for Admiral Colvin and then I'll turn it back over to 
Senator Begich.
    But to change the subject just a little bit, you 
highlighted the problems with the Polar Sea Icebreaker, taking 
that out of operation and the Polar Sea was going to be used 
this summer to conduct the oil spill response drills.
    Without the Polar Sea or other icebreakers like the Polar 
Star, how is the Coast Guard going to be able to conduct these 
drills in the coming years?
    Admiral Colvin. Thank you, Senator Stabenow, for the 
question.
    We're not going to be. Unless the--well, we can certainly 
operate in open water during the summer and we can bring up our 
ships that normally operate in the Bering Sea, as long as it 
has summer open water conditions, and we can go ahead and do 
oil spill drills.
    The challenge becomes earlier in the season on the 
shoulders. As you get early or late in the season when the ice 
is rapidly forming in November or earlier in the season, you 
really need the icebreakers to operate in those conditions and 
certainly throughout the winter.
    One of the challenges, Senator, that I see with the 
icebreakers, we've taken the money away from the icebreakers, 
the maintenance and operations money, and we've given it to the 
National Science Foundation and Congress is working hard to 
give that money back.
    The National Science Foundation has done exactly what I 
would do if I was running the National Science Foundation. 
That's put as many scientists aboard as many ships as possible 
to get as much science done.
    What that has resulted in is having Russian, Swedish, and 
Canadian, a wide variety of foreign icebreakers operating in 
U.S. waters. My contention would be that does very little to 
enhance the sovereignty of the United States. We need to put 
those same U.S. scientists aboard U.S. ships operating in U.S. 
waters and that I think the National Science Foundation and 
everybody would be delighted if we had operational icebreakers 
and enough of them to put the U.S. scientists aboard U.S. 
ships. (a) we'd get the science and (b) we'd make sure we 
ensure our sovereignty.
    Senator Stabenow. Thank you. In the interest of time, 
Senator, I will conclude at this point.
    Thank you.
    Senator Begich. Thank you very much. Let me, if I can, say 
I just have one--if I can just do a quick follow up on that.
    I'm trying to remember the class of icebreaker capable, we 
were talking on the plane last week, and remind me of that 
class because there was a lower cost but still could do an 
enormous amount of work. What was that class?
    Admiral Colvin. Yes, sir. The Healy is what we call a 
medium icebreaker. Even though it's as big as the Polars as far 
as length, it can only break ice up to about three meters 
thick. So that's a medium icebreaker and we currently have 
Healy operating with the Canadian Icebreaker Louis St. Laurente 
right now in the disputed area between Canada and the United 
States mapping that out. It's a great cooperation between the 
United States and Canada.
    But that's fairly limited as to what they can do. The Polar 
icebreakers, the two Polar icebreakers, the Polar Sea and Polar 
Star, the two most powerful conventional icebreakers in the 
world, the only more powerful ones are the Russian nuclear 
icebreakers, those are the ones that can break ice up to 20 
feet and they can go up to the North Pole. They can operate 
throughout U.S. Arctic.
    Senator Begich. And what are the costs of those? Remind me.
    Admiral Colvin. Sir,----
    Senator Begich. I know I'm sitting now, so it's OK.
    Admiral Colvin. Well, Senator, if you're asking to replace 
one, my understanding is it's probably in the $500 million 
range.
    Now if you're asking how----
    Senator Begich. Refurbished. Go ahead.
    Admiral Colvin.--expensive it is to fix the Polar Star, 
because the Polar Star had been taken out of operation, losing 
the maintenance and operations money, it had been taken out of 
operation and was just sitting at the pier in Seattle, when 
Congress said, hey, let's go ahead and fix the Polar Star and 
put it back into operation, about $68 million to get it 
returned to operation, but that was last year when the money 
and the work was started or actually this year, 2010. It'll be 
2013 before it's ready to go.
    So by letting that ship just sit there for about 5 years, 
we ended up having to wait another 3 years after we gave it the 
money before it will become operational.
    Senator Begich. Very good. Let me say again, thank you to 
the panelists. Thank you all for being here. Thank you for your 
written testimony.
    What's going to happen in seconds, I'm told, once I hit 
that gavel and suddenly people get up, seats will move around 
and this will turn into an opportunity for a town hall meeting 
that's occurring next, and I want to thank you all for the good 
testimony.
    It's interesting. I have to agree with you, Marilyn, that 
no one coordinated but the one common thread that I heard was 
the issue of research, technology, and how do we ensure that 
the funding stream is there maybe for equipment to data 
collection to understanding, so when the data is there, then 
the decisions are made, the oil and gas development or fishing 
or transportation, you can make them with some knowledge and 
that seemed to be a very common thread. So I really appreciate 
the information and the testimony.
    Thank you all very much. Thank you, Senator Stabenow, for 
being here today for this. We're going to later go fly over and 
see some of the areas and so that's going to be very exciting.
    So thank you all very much. This meeting is adjourned.
    [Whereupon, at 12:04 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
